                                                                             Report No. DODIG-2013-091




              I nspec tor Ge ne ral
                                                       Department of Defense

              J U LY 9 , 2 0 1 3




                     Evaluation of the Military Criminal
                     Investigative Organizations Sexual
                     Assault Investigations




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Evaluation of the Military Criminal Investigative
                                   Organizations Sexual Assault Investigations


July 9, 2013                                        Findings Continued

Objective                                               judge advocate(s) upon initiating an investigation.

We evaluated the Military Criminal Investigative     •	 CID guidance regarding records checks does not provide a
Organizations’ (MCIOs’) sexual assault investi­         definitive timeliness requirement. NCIS policy on this topic
gations completed in 2010 to determine whether          needs improvement.
they completed investigations as required by
                                                     •	 NCIS needs policy to require Sexual Assault Response
DoD, Military Service, and MCIO guidance. Our
                                                        Coordinator (SARC) notifications and documentation.
evaluation focused on the following question:

    Did the MCIOs investigate sexual assaults       Recommendations
    as required by guiding policies and              •	 The Director and Commanders of the MCIOs implement
    procedures?                                         measures to improve crime scene processing, evidence
                                                        collection, supervision, and documentation to reduce

Findings                                                investigative deficiencies.

 •	 Most MCIO investigations (89 percent) met        •	 The Commanders of CID and AFOSI evaluate their existing
    or exceeded the investigative standards.            policies regarding the collection of clothing worn by suspects
                                                        and victims subsequent to a sexual assault.
 •	 We returned cases with significant
    deficiencies (11 percent) to the MCIOs for       •	 The Director of NCIS evaluate current policy regarding the
    corrective action.                                  timely notification and coordination with servicing judge
                                                        advocates upon the initiation of sexual assault cases, as well as
 •	 Although 83 cases had no deficiencies,              the continued coordination with the servicing judge advocates
    most of the remaining investigations                until final case disposition.
    had deficiencies that were not deemed
    significant.                                     •	 The Commander of CID and Director of NCIS evaluate existing
                                                        policy guidance regarding the timely completion of records
 •	 The U.S. Army Criminal Investigation                checks.
    Command (CID) and Air Force Office of
    Special Investigations (AFOSI) policy            •	 The Director of NCIS implement policy requiring SARC
    guidance does not direct the collection of          notifications and documentation.
    clothing articles that a victim or suspect
    might have placed on themselves shortly         Comments
    after the assault, if different from the
                                                    Overall, the Commander, CID, agreed with our recommendations.
    clothing worn during the assault.
                                                    The Director, NCIS, and the Commander, AFOSI, agreed in part with
 •	 Naval Criminal Investigative Service (NCIS)     our recommendations, but objected to our assessment in a number
    policy does not require NCIS investigators      of areas in the report. See the recommendations table on the next
    to notify or coordinate with their servicing    page.


Visit us on the web at www.dodig.mil
                                                                                                          DODIG-2013-091 │ i
                  Recommendations Table
                                                                    Recommendations         No Additional
                                      Management                    Requiring Comment     Comments Required
                      The Director and Commanders of the Military                           1, 2.a, 3.a, 3.b, and
                      Criminal Investigative Organizations                                                     3.c
                      The Commander, U.S. Army Criminal                                                         7
                      Investigation Command
                      The Director, Naval Criminal Investigative                              2.b, 4, 5, 6.a, 6.b,
                                                                                7 and 9
                      Service                                                                              and 8
                      The Commander, Air Force Office of Special                            2.b, 2.c, 4, 6.a, and
                      Investigations                                                                           6.b




ii │ DODIG-2013-091
                                  FOR OFFICIAL USE ONLY

                               INSPECTOR  GENERAL
                                   INSPECTOR GENERAL
                                     DEPARTMENT
                              DEPARTMENT          OF DEFENSE
                                            OF DEFENSE
                                     4800 MARK CENTER DRIVE
                              4800ALEXANDRIA,
                                   MARK CENTER     DRIVE
                                              VIRGINIA 22350-1500
                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                               July 9, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
		             SECRETARIES OF THE MILITARY DEPARTMENTS
		             COMMANDER, U.S. ARMY CRIMINAL INVESTIGATION COMMAND
		             DIRECTOR, NAVAL CRIMINAL INVESTIGATIVE SERVICE
		             COMMANDER, U.S. AIR FORCE OFFICE OF SPECIAL
			 INVESTIGATIONS
		             DIRECTOR, DOD SEXUAL ASSAULT PREVENTION AND RESPONSE
			 OFFICE

SUBJECT: Evaluation of the Military Criminal Investigative Organizations Sexual Assault
	        Investigations (Report No. DODIG-2013-091)

			 This report is provided for review and comment. We evaluated Military Criminal
Investigative Organizations’ (MCIOs’) sexual assault investigations to determine whether
they achieved DoD, Military Service and MCIO investigative standards. This was a
self-initiated project to meet our statutory obligation to provide policy, oversight, and
performance evaluation of all DoD activities relating to criminal investigation programs.

			 We determined that most (89 percent) of the sexual assault complaints reviewed
met investigative standards. We returned cases with significant deficiencies to the
responsible MCIOs for corrective action. Significant deficiencies are key evidence not being
collected, crime scenes not examined, and witness or subject interviews not conducted
or not thorough. We also found that certain MCIO policies and practices regarding the
collection of physical evidence, crime scene examinations, legal coordination, and records
checks need improvement. Lastly, investigative interviews, for all the MCIOs, could
benefit from increased emphasis on thoroughness by supervisors, training, and policy
improvements.

			 Additionally, we invite your attention to the “Case Detail Data” which provides
factual data on a myriad of sexual assault characteristics. This information may prove
helpful in combatting sexual assault in the Department of Defense.

			 We considered management comments on a draft of this report when preparing
the final report. DoD Directive 7650.3 requires that recommendations be resolved
promptly. Overall, the Commander, U.S. Army Criminal Investigation Command (CID),
agreed with our recommendations. The Director, Naval Criminal Investigation Service
(NCIS), and the Commander, U.S. Air Force Office of Special Investigations (AFOSI), agreed
in part with our recommendations.

			 Please provide comments that conform to the requirements of DoD Directive
7650.3 by August 30, 2013. Please send a portable document file (.pdf) containing
your comments to chris.redmond@dodig.mil. Copies of management comments must


                      DRAFT REPORT            FOR OFFICIAL USE ONLY
                                                                                           DODIG-2013-091 │ iii
                  contain the actual or electronic signature of the authorizing official. If you arrange to
                  send classified comments electronically, you must send them over the SECRET Internet
                  Protocol Router Network (SIPRNET).

                  			 We appreciate the courtesies extended to the evaluation staff during the review.
                  For additional information on this report, please contact Mr. Chris Redmond at (703)
                  604-8556.

                  											
                  	

                  						                                        Randolph Stone
                  						                                        Deputy Inspector General
                  						                                        Policy and Oversight




iv │ DODIG-2013-091
Contents

Introduction
Objectives_________________________________________________________________________________________1
Background_______________________________________________________________________________________1
DoD Policy and Requirements__________________________________________________________________2
Scope and Methodology_________________________________________________________________________3

Finding
Condition of the MCIOs’ Sexual Assault Investigations _______________________________________5
Did the MCIOs Investigate Sexual Assaults as Required by Guiding Policies and
Procedures?______________________________________________________________________________________5
Analysis of Investigative Deficiencies_ _________________________________________________________8
Demographic and Other Case Data __________________________________________________________ 20
Conclusions_____________________________________________________________________________________ 21
Management Comments on the Report and Our Response_________________________________ 23
Recommendations, MCIO Comments, and Our Response___________________________________ 29

Appendices
Appendix A. Scope and Methodology________________________________________________________ 42
Appendix B. References_______________________________________________________________________ 45
Appendix C. Case Detail Data_________________________________________________________________ 48
Appendix D. Memorandum of Results_______________________________________________________ 70

Management Comments
CID Comments_ ________________________________________________________________________________ 72
NCIS Comments________________________________________________________________________________ 73
AFOSI Comments______________________________________________________________________________ 84

Acronyms and Abbreviations______________________________________________ 92




                                                                                                       DODIG-2013-091 │ v
                                                                                                                                  Introduction




Introduction
Objectives
We evaluated the Military Criminal Investigative Organizations’ (MCIOs’)1 sexual assault
investigations to determine whether they were adequately investigated. Our evaluation
focused on the following question:

                Did the MCIOs investigate sexual assaults as required by guiding
                policies and procedures?


Background
The DoD Inspector General (IG) has statutory authority in accordance with the Inspector
General Act of 1978 for policy, oversight, and performance evaluation with respect to all
DoD activities relating to criminal investigation programs. This authority is embodied
in DoD Directive (DoDD) 5106.01, “Inspector General of the Department of Defense (IG
DoD),” April 20, 2012, and DoD Instruction (DoDI) 5505.03, “Initiation of Investigations
by Defense Criminal Investigative Organizations,” March 24, 2011.                                         The DoD IG’s
responsibilities regarding the DoD’s sexual assault investigations are further specified in
DoDD 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,” January 23,
2012, and DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,”
June 23, 2006. This guidance directs the DoD IG to develop policy and to oversee the
DoD’s criminal investigative organizations’ investigations of sexual assaults.

Within DoD, the MCIOs are responsible for investigating most sexual assaults.2 In the
Army, the U.S. Army Criminal Investigation Command (CID) investigates all sexual
assault complaints. Whereas, at the time of this evaluation, the Air Force Office of Special
Investigations (AFOSI) did not normally investigate wrongful sexual contact (formerly
indecent assault) and indecent exposure.3 Wrongful sexual contact involves improper,
unwanted touching of a sexual nature with the specific intent to demean the victim and
gratify the lust of the accused’s sexual desires. Both the NCIS and AFOSI, in accordance
with Service policies, exercised independent discretion regarding the investigation of


	1	
    The MCIOs include the U.S. Army Criminal Investigation Command, Naval Criminal Investigative Service, and Air Force Office
    of Special Investigations.
	2	
    Sexual assault includes rape, forcible sodomy (oral or anal sex), and other unwanted sexual contact that is aggravated,
    abusive, or wrongful (to include unwanted and inappropriate sexual contact) or attempts to commit these acts. The
    definition generally encompasses offenses classified under Articles 120 and 125 of the 2007 and 2008 version of the
    Uniform Code of Military Justice. Navy Masters at Arms, Navy and Air Force command officials, and Air Force Security
    Forces investigate offenses involving unwanted sexual touching outside the clothing.
	3	
    Definitions in the 2007 and 2008 version of the Uniform Code of Military Justice were in effect at the time of this review.




                                                                                                                              DODIG-2013-091 │ 1
Introduction



                 wrongful sexual contact (formerly indecent assault) offenses based on the complexity of
                 the case. As a result, NCIS conducted 31 investigations and AFOSI conducted 7 of these
                 investigations compared to CID, which conducted 61 investigations. Although NCIS
                 conducted 31 investigations, some NCIS wrongful sexual contact (or indecent assault)
                 investigations may have been referred to the Navy Masters at Arms and Marine Corps CID
                 investigators, based on policy guidance in effect at the time. Air Force Security Forces
                 investigators typically investigated wrongful sexual contact complaints for the Air Force.
                 Current DoD policies implemented in January 20134 require the MCIOs to investigate all
                 sexual assaults.

                 Additionally, the MCIOs are responsible for developing Service-specific investigative
                 policy and requirements governing the conduct of sexual assault investigations and the
                 training of assigned special agents in accordance with the Services’ training standards.

                 In August 2011, the DoD IG formed the Violent Crime Division within the Investigative
                 Policy and Oversight Directorate having the primary purpose of providing oversight to
                 the MCIOs in the area of violent crimes, to include sexual assaults.

                 The DoD IG initiated this project to evaluate whether the MCIO sexual assault investigations
                 were adequately investigated in compliance with policy and guidance.


                 DoD Policy and Requirements
                 DoDD 6495.01, October 6, 2005, requires:

                                   an immediate, trained response capability for each report of sexual
                                   assault in all locations, including deployed locations, and ensure
                                   victims of sexual assault are protected, treated with dignity and
                                   respect, and receive timely access to treatment and services . . . .

                 Within DoD, the MCIOs provide a trained response capability to investigate reported
                 sexual assaults in all locations.

                 DoDI 6495.02 establishes requirements and responsibilities regarding DoD’s response
                 to sexual assaults for DoD Components including the DoD Sexual Assault Prevention and
                 Response Office (SAPRO), the DoD IG, and the Secretaries of the Military Departments.




                 	4	
                       DoDI 5505.18, “Investigation of Adult Sexual Assault in the Department of Defense,” January 25, 2013, now requires the
                       MCIOs to “initiate investigations of all offenses of adult sexual assault of which they become aware . . . regardless of the
                       severity of the allegation.”




2 │ DODIG-2013-091
                                                                                              Introduction



The Instruction designates the MCIO criminal investigators as DoD sexual assault first
responders.


Scope and Methodology
The evaluation focused on the adequacy of MCIO investigations of adult sexual assaults.
By reviewing closed (completed and adjudicated) sexual assault investigations, we
determined whether the MCIOs conducted investigations in accordance with DoD, Service,
and MCIO policies and procedures. A closed investigation means investigative work and
adjudication actions were complete.

This review was based on a simple random sampling of completed cases closed in 2010
and included sexual assault offenses (of adult victims) defined under Articles 120 and
125, Uniform Code of Military Justice (UCMJ), worked by the MCIOs. Table 1 depicts the
case totals for the sexual assault investigations closed in 2010.

Table 1. Calculation of Total Cases Reviewed

        Explanation               Total           CID               NCIS        AFOSI
 Case Population                 2,263           1,082              704          477
 Sample Cases                      584             216              195          173
 Cases Excluded                     81              18               36           27
 Cases Missing                       2               0                2            0
 Net Total Reviewed                501             198              157          146


We developed sexual assault case review protocols for each MCIO based on each MCIO’s
investigative policies and procedures. The review protocols were developed to uniformly
determine compliance with DoD, Service, and MCIO requirements that were in effect
during the period we examined. They also addressed, in detail, investigative steps required
to complete a thorough sexual assault investigation. We noted deficiencies and identified
investigations with significant deficiencies, and when practicable, recommended follow
up or corrective action.

Although we identified a sample size of 584 cases, information about 83 cases was
not included in our project. We excluded 81 from the review for one of the following
three reasons: 1) the investigation was determined to be a monitor-type investigation
in which another investigative entity conducted the bulk of the investigative activity; 2)
adjudication of the case extended into 2011 (therefore, the case was not closed in 2010
even though the investigative activity was complete); or 3) the victim in the case was




                                                                                          DODIG-2013-091 │ 3
Introduction



                 a juvenile rather than an adult victim.5 Additionally, as reflected in Table 1, NCIS was
                 unable to locate (either the hard or digital copies) two case files. This resulted in a sample
                 size of 501 cases.

                 We engaged DoD IG’s Quantitative Methods Division (QMD) analysts for computations
                 of the case sample selection and statistical calculations and projections to the total case
                 population. The QMD analysts opined that the calculation of projections to the total case
                 population, based on the sample (see Appendix D for details of projected totals based
                 on sample results) would not be adversely affected by the cases that were excluded or
                 missing (83 cases) from the original random sampling of 584 cases.

                 See Appendix A for details of the scope and methodology. See Appendix B for a list of
                 references used throughout this report.




                 	5	
                       On January 29, 2013, DoD OIG initiated an evaluation of the MCIOs’ child sexual assault investigations.




4 │ DODIG-2013-091
                                                                                                   Finding




Finding
Condition of the MCIOs’ Sexual Assault Investigations
To determine the condition of the sexual assault investigations, we focused on the
following question.



Did the MCIOs Investigate Sexual Assaults as Required
by Guiding Policies and Procedures?
Most of the cases we reviewed (445 of 501 cases or 89 percent) met investigative
standards or did not have significant deficiencies. Eighty-three cases met investigative
standards because they had no deficiencies. Although we found deficiencies in 362 cases,
they were not significant because they did not have a negative impact on the investigation.
Eleven percent (56 of 501) of the cases we reviewed had significant deficiencies.6 We
returned the cases with significant deficiencies to the MCIOs for resolution. Of the 56
cases returned, the MCIOs reopened 31 cases for additional investigative work. For the
remainder, the MCIOs determined additional investigative activity was not practicable
due to the amount of time elapsed or based on their judgment that additional efforts
would be futile. We will oversee the results of reopened investigations.

The primary offenses observed during this review were rape, aggravated sexual assault,
aggravated sexual contact, abusive sexual contact, indecent acts, wrongful sexual contact,
indecent assault, forcible sodomy (oral or anal sex), sodomy, assault with intent to commit
rape, and attempted rape.

The cases reviewed included incidents in which neither the subject nor the victim
consumed/ingested alcohol or drugs, as well as cases in which the subject(s) used alcohol
and/or drugs to facilitate sexual assaults.

The offenses occurred both on and off military installations, and in some instances, the
exact location where the offense occurred could not be determined. Offenses occurred in
a variety of settings, such as bars/nightclubs, barracks/dorms, overseas deployed billets,
hotels, and residences.

We observed and documented the types of relationships between the subject and the
victim, to include determining the subject’s or the victim’s military affiliation. We also


	6	
      See page 7 for examples of significant investigative deficiencies.




                                                                                          DODIG-2013-091 │ 5
Finding



                 analyzed a host of other victim- and subject-specific data such as age, pay grade, and
                 gender.

                 Twenty-seven incidents were initially reported as restricted reports,7 but each victim
                 later elected to pursue an unrestricted report.8

                 We also collected and analyzed the disciplinary actions taken against the subjects of the
                 investigations. We did not analyze whether the action was appropriate. The propriety or
                 appropriateness of disciplinary actions taken by commanders, based on legal guidance,
                 was not within the scope of this evaluation. Disciplinary actions taken against the
                 subjects included court-martial, punitive discharge, administrative separations, civilian
                 prosecution, nonjudicial punishment, reprimand, counseling, other actions, and no action
                 taken. See Appendix C, Table C-35, for details.


                 Cases with No Deficiencies or Minor Deficiencies
                 Of the 501 cases reviewed, 445 (89 percent) either had no deficiencies or the deficiencies
                 noted did not have a negative impact on the investigation. Eighty-three cases had no
                 investigative deficiencies. The remaining 362 cases had one or more deficiencies but
                 the deficiencies were minor and did not adversely affect the successful resolution of the
                 investigation. Table 2 depicts a breakdown by MCIO of the number of cases, with and
                 without deficiencies.

                 Table 2. Cases with No Deficiencies or Minor Deficiencies

                               Category                         Total                   CID                  NCIS                  AFOSI
                     Cases w/o Deficiencies                        83                    41                     20                    22
                     Cases with Minor                            362                    144                   111                    107
                     Deficiencies
                     Total                                       445                    185                   131                    129

                 See Appendix C for details of all sample results.




                 	7	
                     According to DoDD 6495.01, E2.1.10 (October 6, 2005, version in effect at the time of this review), restricted reporting
                     is “[a] process used by a Service member to report or disclose that he or she is the victim of a sexual assault to specified
                     officials on a requested confidential basis. Under these circumstances, the victim’s report and any details provided to
                     healthcare personnel, the SARC [Sexual Assault Response Coordinator], or a VA [Victim Advocate] will not be reported
                     to law enforcement to initiate the official investigative process unless the victim consents or an established exception is
                     exercised . . . “.
                 	8	
                     Section E2.1.16 of DoDD 6495.01 states that unrestricted reporting is “[a] process a Service member uses to disclose,
                     without requesting confidentiality or restricted reporting, that he or she is the victim of a sexual assault. Under these
                     circumstances, the victim’s report and any details provided to healthcare personnel, the SARC, a VA, command authorities,
                     or other persons are reportable to law enforcement and may be used to initiate the official investigative process.”




6 │ DODIG-2013-091
                                                                                                     Finding



Cases with Significant Deficiencies
Of the 501 cases reviewed, 56 cases had significant deficiencies. Table 3 depicts a
breakdown by MCIO of the number of cases with significant deficiencies.

Table 3. Cases with Significant Deficiencies

            Category                 Total              CID        NCIS           AFOSI
 Returned                              56                13          26             17
 Reopened*                             31                     7      14             10
*DoD IG will oversee the results of reopened investigations

Significant deficiencies included:

          •	 key evidence was not collected from the crime scene, the victim, or the subject;

          •	 crime scene examinations were not completed, not completed thoroughly, or
             not completed before the loss of crucial evidence;

          •	 witness interviews were not thorough or not conducted; and

          •	 subject or victim interviews were not thorough or reinterviews of subject or
             victims did not sufficiently develop new information.

We provided information including the documented deficiencies on all 56 significantly
deficient investigations to the respective MCIOs. We asked the MCIOs to consider our
findings and, where practicable, reopen those cases to conduct additional investigative
activity to correct shortcomings. In some instances, reopening the investigation would
not be a prudent use of investigative resources due to the length of time elapsed or
judgment that additional efforts would be futile. Table 3 also depicts a breakdown by
MCIO of the number of returned significantly deficient cases that were reopened by the
MCIOs to conduct additional investigative activity.

Cases Returned to CID: On June 7, 2012, we returned 13 cases to CID for consideration
of our findings. On June 29, 2012, CID agreed to reopen 4 of the 13 cases to conduct
additional activity. They declined to pursue additional investigative activity in the nine
remaining cases because they believed it would not alter the outcome of the case or a
significant amount of time had elapsed since the incident, causing additional investigative
activity to be impracticable. After reviewing CID’s response, we disagreed with their
assessment of seven of the nine remaining cases. We provided additional rationale
regarding the seven cases for CID to consider. On January 7, 2013, CID advised that they




                                                                                            DODIG-2013-091 │ 7
Finding



                 reopened three of those cases. No additional investigative activity will be undertaken on
                 the remaining four cases for the reasons stated above.

                 Cases Returned to NCIS: On August 2, 2012, we returned 26 cases to NCIS for
                 consideration of our findings. On September 5, 2012, NCIS advised that they reopened
                 11 of the 26 cases to conduct additional activity. On October 9, 2012, NCIS advised that
                 they reopened one additional case (12 of the 26 cases) to conduct additional activity.
                 They declined to pursue additional investigative activity on the 14 remaining cases
                 because they believed it would not alter the outcome of the case or too much time had
                 elapsed, causing additional investigative activity to be impracticable. After reviewing
                 NCIS’ response, we disagreed with their assessment of 2 of the 14 remaining cases. We
                 provided additional rationale regarding the two cases for NCIS to consider. On December
                 28, 2012, NCIS advised that they reopened one case and intend to reopen the remaining
                 case. On February 14, 2013, NCIS advised that they reopened the final case.

                 Cases Returned to AFOSI: On April 23, 2012, we returned 17 cases to AFOSI for
                 consideration of our findings. On May 21, 2012, AFOSI agreed to reopen 10 of the 17 cases
                 to conduct additional activity. They declined to pursue additional investigative activity in
                 the seven remaining cases because they believed it would not alter the outcome of the
                 case or too much time had elapsed, causing the recommended investigative activity to be
                 impractical. After reviewing AFOSI’s response, we agreed with their assessment of the
                 seven remaining cases.


                 Missing Cases
                 As previously mentioned, we were unable to review two NCIS cases because NCIS
                 personnel could not locate the files. The NCIS records management officials were unable
                 to determine what happened to the two missing case files. NCIS officials stated that field
                 office personnel where the investigations were conducted indicated they had mailed the
                 files to NCIS headquarters for digital scanning as required by NCIS policy. Once the field
                 office confirmed the existence of the digitized files in the NCIS case management system,
                 they destroyed the local copies. A search by NCIS personnel for the original files and the
                 digital copies failed to locate the two missing cases. After NCIS officials could not locate
                 the two cases, they initiated a records inventory to determine the accountability of other
                 sexual assault investigative records.


                 Analysis of Investigative Deficiencies
                 We analyzed the deficiencies found in a total of 418 cases. Our analysis disclosed six
                 categories of deficiencies including: 1) interview and post-interview, 2) evidence, 3)



8 │ DODIG-2013-091
                                                                                                                Finding



crime scene documentation and processing, 4) subject-focused actions, 5) investigative
coordination/notification, and 6) documentation (investigative and administrative)
deficiencies. In addition, we included case data such as types of sexual assault, where the
assault occurred, use of alcohol or drugs, and the relationship between the subject and
the victim.


Interview and Post-Interview Deficiencies
In total, 399 of the 501 sample cases had interview and post-interview deficiencies.
We categorized them by subject, victim, and witness interview and post-interview
deficiencies to more efficiently analyze the results. Table 4 depicts a breakdown by MCIO
of the number of cases with interview deficiencies.

Table 4. Cases with Interview and Post-Interview Deficiencies

         Total                  CID                  NCIS                 AFOSI
          399                   140                   145                  114



Subject Interview and Post-Interview Deficiencies
We found two issues related to the thoroughness of subject interviews and post-interview
actions. They were: 1) the interview documentation did not address all elements of the
offense(s), or pertinent information surrounding the assault was omitted and should have
been captured by investigators (for example, investigators did not capture information
about the suspect’s alibi in an effort to substantiate or refute the alibi) and 2) investigators
did not pursue relevant investigative leads generated from the interview.9 Table 5
depicts a breakdown by MCIO of the number of cases with subject interview deficiencies.
Additionally, not reflected in Table 5, one subject was not advised of his legal rights as
required. Although not advising a subject of their legal rights could have an adverse effect
on a case, our review indicates this to be anomalous and not a systemic issue. In two
instances (one for NCIS and one for AFOSI), the subject was never interviewed and the file
provided no explanation.

Table 5. Subject Interview and Post-Interview Deficiencies

                             Category                                  Total      CID   NCIS   AFOSI
 Subject interview was not thorough or did not                           67       24     22     21
 address all elements of the offense investigated.
 Investigators did not follow up on logical leads                        78       18     31     29
 stemming from interviews.


	9	
      See Appendix C for additional information on the two areas of concern.



                                                                                                       DODIG-2013-091 │ 9
Finding



                 Victim Interview and Post-Interview Deficiencies
                 We separated victim interview thoroughness and post-interview action deficiencies into
                 four areas of concern as follows: 1) the interview was not considered thorough because
                 the documentation of the interview did not address all elements of the offense(s),
                 or pertinent information surrounding the assault was omitted and should have been
                 captured by investigators; 2) investigators never followed up on relevant investigative
                 leads generated from the interview; 3) investigators did not attempt to corroborate
                 pertinent information the victim provided to them; and 4) investigators did not address
                 or investigate the victim’s recantation. Additionally, we found two items not related to the
                 thoroughness of interviews but shortcomings related to operational and administrative
                 interviews requirements as follows: 1) investigators did not issue or failed to document
                 that they issued a DD Form 270110 to victims and 2) investigators did not provide routine
                 or recurring briefings to the victims on the status and various aspects of the investigations
                 or investigators failed to document that the briefings were conducted (CID and NCIS).
                 DoD guidance requires that victims receive recurring case status briefings but it does
                 not specify from whom. Both CID and NCIS policies have supplemented their Service
                 policies and require investigators to periodically brief victims. For the Air Force, these
                 briefings are provided by the victim’s commander. The AFOSI reports of investigations
                 we reviewed did not include information related to victim briefings. Table 6 depicts the
                 total and a breakdown by MCIO for each of the areas of concern of the number of cases
                 with specific deficiencies.11

                 Table 6. Victim Interview and Post-Interview Deficiencies

                                                     Category                                          Total         CID          NCIS          AFOSI
                      Interview was not thorough or did not address all                                  98            27            35            36
                      elements of offense.
                      Logical leads stemming from interview were not                                    132            39            51            42
                      developed or pursued.
                      Information provided was not corroborated.                                         44            14            13            17
                      Victim’s recantation was not addressed or investigated.                            11             0             3              8
                      Victim was not issued a DD Form 2701.                                              79            66        N/O*              13
                      Routine/recurring victim briefs were not conducted in                             179            64          115            N/A
                      accordance with (IAW) MCIO policy.
                 *Not Observable. There were 111 instances in which we were unable to verify NCIS’ compliance
                 with the issuance of the DD Form 2701, because the case activity records, where the information
                 is normally documented, had been destroyed IAW Secretary of the Navy Manual-5210.1 (SECNAV
                 M-5210.1), “Department of the Navy Records Management Program, Records Management Manual,”
                 November 2007 (Rev.).

                 	10	
                        The DD Form 2701, “Initial Information for Victims and Witnesses of Crime,” provides recipients with an understanding of
                        the military criminal justice process, actions to take in certain situations, a list of victim rights, and contact information if
                        additional assistance is needed.
                 	11	
                        See Appendix C for additional information on the eight areas of concern.


10 │ DODIG-2013-091
                                                                                                                        Finding



Witness Interview and Post-Interview Deficiencies
Witness interview and post-interview action deficiencies were broken down into five
areas of concern as follows: 1) significant witnesses were identified but not interviewed,
and the file contained no documented explanation for why they were not interviewed; 2)
the initial witness the victim confided in was not interviewed; 3) canvass interviews were
not conducted when appropriate; 4) the interview was considered not thorough because
pertinent information surrounding the assault was omitted and should have been captured
by investigators (for example, investigators often did not explain discrepancies between
witness, subject, or victim testimony when appropriate, or investigators annotated the
general opinion from a witness rather than descriptive observations in relation to a victim
or subject’s intoxication); and 5) investigators never followed up on relevant investigative
leads generated from the interview.12 Table 7 depicts the total and a breakdown by MCIO
for each of the areas of concern of the number of cases with specific deficiencies. We
found no noted instances of witness information not being corroborated.

Table 7. Witness Interview and Post-Interview Deficiencies

                                  Category                                       Total   CID   NCIS   AFOSI
  Significant witnesses were identified but not interviewed,                     173     38     74      61
  and the file was not documented to explain why.
  Initial witness the victim confided in was not interviewed.                       9     4      2       3
  Canvass interviews were not conducted.*                                         28     10     11       7
  Witness interview was not thorough.                                            102     43     26      33
  Investigators did not follow up on logical leads stemming                       98     33     30      35
  from interviews.
*Canvass interviews are interviews conducted in the immediate vicinity of a crime scene in an effort
to identify potential witnesses or information related to the matter being investigated.

CID and NCIS policies fully address the elements of thorough interviews including: 1)
establishing and understanding the elements of the offense(s) being investigated; 2)
investigating inconsistencies in victim, witness, or suspect statements; and 3) investigating
subject/suspect alibis.                Although AFOSI policies address the first two elements of
thorough interviews, AFOSI has no policy guidance pertaining to investigating subject/
suspect alibis. We believe that these principles, if applied to the interview process, will
result in more thorough interviews. In addition, CID’s practice of documenting interviews
in narrative, and question and answer format is thorough, and it routinely captured
necessary details of interviews.



	12	
       See Appendix C for additional information on the five areas of concern.




                                                                                                              DODIG-2013-091 │ 11
Finding



                 Evidence Deficiencies
                 In total, 127 of 501 cases had evidence deficiencies. We separated the evidence deficiencies
                 into five areas of concern.13 Table 8 depicts a breakdown by MCIO of the number of cases
                 with evidence deficiencies.

                 We narrowed these deficiencies down to one specific action requiring additional oversight
                 during future investigations, that is, the failure to collect all items of physical evidence (for
                 example, clothing, deoxyribonucleic acid [DNA] samples, phone records, text records)
                 identified by subjects, victims, or witnesses. We observed incidents when investigators
                 did not seize clothing items identified during investigative activity that were worn by
                 victim(s) or subject(s) during or immediately after an alleged sexual assault. In other
                 instances, the victim(s) or subject(s) used cell phones to discuss alleged sexual assaults
                 or details pertaining to them that were never collected and exploited for evidentiary
                 value. Finally, we observed instances when investigators did not collect DNA on potential
                 suspects or other key participants in an investigation in an effort to exclude them as
                 potential suspects.

                 Table 8. Evidence Deficiencies

                                           Investigators did not:                                 Total   CID   NCIS   AFOSI
                      Collect all items of physical evidence identified by                         95      31    39      25
                      subject(s), victim(s), or witness(es).
                      Submit collected physical evidence to U.S. Army Criminal
                      Investigation Laboratory (USACIL) for examination, if                          2      0     2       0
                      appropriate.
                      Submit collected evidence to USACIL in a timely manner.                      25      11     3      11
                      Coordinate lab submission with forensic science                              23      11   N/A      12
                      consultant (FSC) (AFOSI) or special agent-in-charge (CID).
                      Have lab request form reviewed by FSC.                                       14     N/A   N/A      14
                 Note: The disparity in the number of cases with evidence deficiencies and the total number of
                 deficiencies is due to some cases having multiple deficiencies.


                 Collection of Evidence
                 We noted investigators were not collecting the subject’s or victim’s clothing or certain
                 relevant articles of clothing worn during the assault or shortly thereafter as evidence.
                 As indicated in Table 8, of the 501 investigations, 95 contained evidence collection
                 deficiencies. Among those deficiencies, we discovered about one-third of the evidence
                 collection deficiencies involved investigators not collecting the clothing from the victim


                 	13	
                        See Appendix C for additional information on the five areas of concern.




12 │ DODIG-2013-091
                                                                                                     Finding



or suspect as required by organizational policy. Most of these deficiencies occurred in
cases of rape or aggravated sexual assault when the crime was reported within a day after
the incident. Additionally, guiding MCIO policies regarding the collection of the subject or
victim’s clothing were inconsistent.

All of the MCIOs have policy advising agents to collect clothing from the subject or victim;
however, subtle differences exist between each MCIOs’ policies. For example, CID policy
requires the collection of the subject or victim’s clothing regardless of its probative value
but it does not address the collection of any articles of clothing the subjects or victims
might have placed on themselves following an assault, if that clothing was something
other than what the subject or victim wore during the assault. NCIS policy advises agents
to collect clothing worn by the subject or victim during the assault, as well as clothing
the subject or victim might have placed on themselves following the assault when the
clothing was different than what the subject or victim wore during the assault. However,
NCIS policy relies on the word “should” instead of “will” or “must,” which provides
investigators discretion to decide an article of clothing’s probative value and to choose
when they should collect the clothing. AFOSI policy does not address the collection of
articles of clothing the subject or victim might have placed on themselves immediately
following an assault, if that clothing was something other than what the victim or suspect
wore during the assault. Clothing worn during a sexual assault as well as clothing worn
immediately following a sexual assault may contain evidence.


Crime Scene Documentation and/or Processing Deficiencies
In total, 218 cases had crime scene documentation and/or crime scene processing
deficiencies. We separated the crime scene documentation and/or processing deficiencies
into five areas.14 Table 9 depicts a breakdown by MCIO of the number of cases with crime
scene documentation and/or processing deficiencies.

We narrowed these deficiencies down to four specific actions requiring additional oversight
during future investigations as follows: 1) crime scene examination or validation, 2) crime
scene photography, 3) crime scene sketches, and 4) evidence collection. Neither AFOSI
nor NCIS consistently evaluated and/or documented crime scenes during the course of
their sexual assault investigations. We also observed trends indicating that investigators
failed to collect all items of physical evidence (such as clothing, DNA samples, phone
records, and text records). Crime scene validations are less thorough examinations
of a scene. These less thorough examinations may be appropriate in an investigation
when there is a significant delay in reporting it to law enforcement and collection of

	14	
       See Appendix C for additional information on the five areas of concern.




                                                                                           DODIG-2013-091 │ 13
Finding



                 physical evidence is no longer possible. Validations normally consist of documenting
                 observations, photographing, and preparing sketches. Validations are important because
                 they provide valuable investigative information and assist during interviews. In addition,
                 the documentation from validations helps others understand how events occurred.

                 Table 9. Crime Scene Documentation and/or Processing Deficiencies

                                    Investigators did not:                          Total            CID            NCIS           AFOSI
                      Examine or validate the crime scene.                         129               25              51              53
                      Have authority to search the scene.                             9                4               3               2
                      Photograph the scene.                                        156               28              56              72
                      Sketch the scene.                                            207               33              86              88
                      Collect potential evidence from the scene.                     21                3               9               9
                 Note: The disparity in the number of cases with crime scene documentation and/or processing
                 deficiencies and the total number of deficiencies is due to some cases having multiple deficiencies.


                 Crime Scene Examination/Search
                 As reflected in Table 9, crime scene examinations or validations were not conducted in
                 129 of the reviewed cases. In 61 investigations, the report of the sexual assault was made
                 within 7 days of the date of the incident and a crime scene should have been available;
                 however, the investigators did not conduct a crime scene examination and did not attempt
                 to collect physical evidence from the scene. In the remaining 68 cases, investigators
                 could have responded to the scene(s) to validate them by documenting observations,
                 photographing, and preparing sketches.

                 CID routinely completed crime scene examinations. CID policy requires agents to promptly
                 respond to a crime scene when it is available. We found that CID crime scene processing
                 and documentation was thorough and routinely included detailed observations,
                 photographs, and sketches.

                 Fifty one of the NCIS investigations reviewed lacked a crime scene examination. NCIS
                 policy regarding crime scene processing uses the word “should” throughout; therefore,
                 it does not explicitly require an investigator to conduct a crime scene examination.
                 However, when NCIS used a Major Case Response Team (MCRT),15 the quality of NCIS
                 crime scene processing increased. The MCRTs conducted thorough and detailed crime
                 scene examinations, which included photography and sketches of the scene.


                 	15	
                        The MCRT provides a 24-hour surge capability of highly trained agents who are trained in crime scene processing
                        techniques and are summoned to all major incidences to search, locate, photograph, document, collect, and preserve
                        physical evidence.




14 │ DODIG-2013-091
                                                                                                                                             Finding



Fifty three of the AFOSI investigations reviewed lacked a crime scene examination. The
AFOSI does not have specific mandatory guidance to establish when to conduct a crime
scene examination. The AFOSI guidance for crime scenes is covered in AFOSI Manual
(AFOSIMAN) 71-124, “Crime Scene Handbook,” September 30, 2003. This is a how-to
manual regarding searches, seizures, and evidence collection procedures. The AFOSIMAN
does not establish policy requirements for conducting crime scene examinations.
Additionally, AFOSI Manual 71-122, volume 1, “Criminal Investigations,” May 29,
2008, which establishes procedures for general investigative methods, refers readers
to AFOSIMAN 71-124 for procedures on searches, seizures, and evidence collection
procedures.


Subject-Focused Action Deficiencies
In total, 190 cases had deficiencies in administrative requirements related to the
processing of subjects of sexual assault investigations. These deficiencies are not related
to the thoroughness of the sexual assault investigations but are important in identifying
and “titling” the subject in the investigative report and indexing the subject in the Defense
Central Index of Investigations (DCII).16 We separated the deficiencies into two areas of
concern.17 Table 10 depicts a breakdown by MCIO of the number of cases with subject-
focused action deficiencies.

Table 10. Cases with Subject-Focused Action Deficiencies

                          Investigators did not:                                 Total        CID          NCIS        AFOSI
  Title/index subject(s) IAW DoDI 5505.07.                                         14            1           13             0
  Comply with guidance regarding the release of subjects                          187           47         103             37
  to unit personnel.
Note: The disparity in the number of cases with deficiencies shown and the total number of
deficiencies is due to some cases having multiple deficiencies.


Investigative Coordination/Notification Deficiencies
In total, 103 cases had investigative coordination/notification deficiencies. We categorized
investigative coordination/notification deficiencies into four areas of concern.18 Table 11
depicts a breakdown by MCIO of the number of cases with investigative coordination/
notification deficiencies.




	16	
       The DCII System is an automated central index that identifies investigations conducted by DoD investigative agencies, and
       personnel security determinations made by DoD adjudicative authorities.
	17	
       See Appendix C for additional information on the two areas of concern.
	18	
       See Appendix C for additional information on the four areas of concern.




                                                                                                                                   DODIG-2013-091 │ 15
Finding



                 Table 11. Cases with Investigative Coordination/Notification Deficiencies

                                        Investigators did not:                   Total      CID       NCIS      AFOSI
                      Receive headquarters or supervisor approval to close
                      short1 (AFOSI) (administratively close) or as a Final C2    20          4       N/A          16
                      (CID) investigation.
                      Coordinate/notify forensic science consultant.              13       N/A        N/A          13
                      Notify the sexual assault response coordinator (SARC).3     78         34      N/A4          44
                      Coordinate with trial counsel.                              21          6      N/A5          15
                 Note: The disparity in the number of cases with deficiencies shown and the total number of
                 deficiencies is due to some cases having multiple deficiencies.
                 1
                  	 According to AFOSIMAN 71-121, paragraphs 9.1.1.3.1 and 9.1.1.3.3, closed short (administrative
                      closure) is when information is obtained indicating the investigation should not have been
                      initiated or the investigation is no longer the responsibility of AFOSI.
                 2
                  	 CID Regulation 195-1, paragraph 4.10, states that a criminal investigation may be terminated prior
                      to exhausting all investigative leads and a Final (C) report of investigation be prepared when the
                      CID investigative resources could be better employed on other investigations and when certain
                      other criteria exist.
                 3
                  	 According to DoDD 6495.01, paragraph E2.1.15.1 (October 6, 2005 edition), the SARC is the
                      central point of contact for coordinating appropriate and responsive care for sexual assault
                      victims.
                 4
                  	 In spite of DoD policy that requires SARC notifications in all sexual assault complaints, NCIS policy
                      did not require SARCs to be notified. Notwithstanding, SARC notifications were documented in
                      71 of 157 investigations, but they were not documented in 86.
                 5
                  	 Although NCIS policy does not require coordination with trial counsel, it “strongly encourages”
                      early and continuous contact with trial counsel or other appropriate attorney. NCIS documented
                      such contacts in 100 instances in the reports we reviewed.


                 MCIO/Judge Advocates Coordination and Collaboration
                 In 57 NCIS cases there was no initial and continuing coordination with the supporting
                 Judge Advocate (JA) or Assistant U.S. Attorney (AUSA). Both CID and AFOSI have specific
                 guidance requiring investigators to develop a process of continued interaction with their
                 respective JAs/AUSAs throughout the life cycle of their investigations. We observed clear
                 guidance and strong interaction between CID investigators and their servicing JAs/AUSAs
                 throughout the life cycle of their cases. We observed robust interaction between AFOSI
                 investigators and their respective JAs, along with detailed guidance. NCIS policy does
                 not specify that investigators are required to notify or coordinate with their servicing
                 JA at the initiation of investigations, nor does it specify that NCIS and the servicing JA/
                 AUSA are required to establish a collaborative relationship throughout the life cycle of an
                 investigation. However, NCIS Manual for Investigations, NCIS 3, Chapter 6, “Investigative
                 Theory and Procedures,” December 2006, section 6-2.3, states that “. . . strong consideration
                 should be given to early and continuous contact with trial counsel or other appropriate
                 attorneys when conducting an investigation.”




16 │ DODIG-2013-091
                                                                                                                                           Finding



Investigative and Administrative Documentation Deficiencies
In total, 88 cases had investigative and administrative documentation deficiencies. The
investigative and administrative documentation deficiencies were broken down into four
areas of concern.19 Table 12 depicts a breakdown by MCIO of the number of cases with
investigative and administrative documentation deficiencies.

Table 12. Cases with Investigative and Administrative Documentation Deficiencies

                                 Category                                     Total1          CID          NCIS         AFOSI
     Required supervisory reviews not documented.                               72            11         N/O2             61
     Review/inclusion of other law enforcement agency’s                           4             1             3             0
     report not documented.
     Location of offense not fully identified.                                  13              0             0           13
     Case agent notes were not retained through the                               5          N/A              5         N/A
     appellate review process.
1
 	      The disparity in the number of cases with investigative and administrative documentation
        deficiencies and the total number of deficiencies is due to some cases having multiple
        deficiencies.
2
 	      Not Observable. In 141 instances, we were unable to verify whether supervisory reviews
        were conducted in the NCIS investigations because the case activity records and supervisor
        review records, where the information is normally documented, had been destroyed IAW
        SECNAV M-5210.1.


Additionally, we found disparate policies and practices among the MCIOs related to
report of investigation documentation, the timely completion of Defense Central Index
of Investigations records checks pertaining to victims and suspects, and the filing and
retention of investigative notes as discussed below.


Timely Records Checks
We noted that CID and NCIS showed trends of not documenting or not conducting law
enforcement records checks,20 or failing to do them in a timely manner. Although not
required by DoD guidance, we observed that AFOSI, IAW its policy guidance, conducted
records checks at the onset of its investigations. AFOSI guidance requires that investigators
conduct records checks within the first 2 days of an investigation and preferably prior to
the initial subject or victim interview. If investigators fail to meet this requirement, they
are required to document this fact in the report of investigation. This practice provides
additional details and background about key participants in the investigation, which
in turn leads to more thorough and insightful interviews. In addition, timely records

	19	
       See Appendix C for additional information on the four areas of concern.
	20	
       Law enforcement records checks include, but are not limited to, local, state, and national law enforcement criminal history
       checks.




                                                                                                                                 DODIG-2013-091 │ 17
Finding



                 checks also enhance officer safety by providing investigators with information regarding
                 weapons, officer safety information (for example, the individual is known to assault
                 law enforcement personnel), and criminal history that would otherwise be unknown if
                 investigators failed to complete the checks early in the investigative process. CID guidance
                 requires that investigators complete criminal records checks “promptly,” but it does not
                 provide a definitive timeliness standard.

                 CID guidance emphasizes the importance of conducting prompt records checks for
                 subjects, suspects, complainants, and victims; however, the language in this guidance
                 does not establish a timeliness standard. In one CID case, investigators failed to realize
                 that the subject of an active sexual assault investigation had been identified as the subject
                 of a previous sexual assault investigation. NCIS guidance indirectly requires that records
                 checks be conducted within the first 3 days of an investigation (first day if a priority case).
                 Although NCIS policies indirectly provide a timeliness standard, we found a majority of
                 the cases reviewed (82 of 157) did not meet the standard. In one NCIS case, investigators
                 did not identify that the subject of an investigation had a record of illegal activity until
                 after the subject had been interviewed. We observed instances in CID and NCIS cases
                 when investigators failed to complete records checks before interacting with subjects.


                 Report of Investigation Documentation
                 The reports of investigation and supporting files of NCIS and AFOSI often lacked basic case
                 information such as date, time, location of occurrence, and offenses under investigation.
                 For example, in one victim’s statement in an AFOSI report of investigation, the victim
                 described an assault occurring in her home but she did not specify her home address
                 in the statement, and it was not documented anywhere in the report or supporting file.
                 CID provides basic information at the beginning of each report of investigation on a title
                 page, or as much of the information as is known, which simplifies locating basic case
                 information for commanders and JAs/AUSAs reading the reports.


                 Investigative Case Notes
                 Investigative case notes are often the first investigative documentation produced as part
                 of an investigation. As such, they may provide vivid and timely details agents can refer
                 to when completing more concise and formal case reporting and when testifying at trial.
                 Although DoD has no standardized policy for creating and retaining investigative case
                 notes, each MCIO has unique procedural guidance.




18 │ DODIG-2013-091
                                                                                                                                           Finding



A review of AFOSI guidance revealed that investigators are encouraged to complete
thorough, detailed, and legible investigative case notes. These notes are maintained
with the original case file and retained at the AFOSI File Repository. The effectiveness of
AFOSI’s policy and procedures regarding investigative case notes was evident when we
observed lengthy and detailed case notes that were readily available with the respective
case file. AFOSI guidance requires investigators to maintain all original agents’ notes
relating to allegations and complaints. The guidance explains how investigators were to
save and attach agent’s notes to investigative activities documented in their investigative
management system and procedures for completing, retaining, and storing.

CID Regulation (CIDR) 195-1, “Criminal Investigation (Operational Procedures),”
March 22, 2010, version 11, section 7-7c.4, specifies that “[a]ll investigative interview/
crime scene related notes prepared by special agents will be maintained in the case
folder.” CIDR 195-1, section 5-7c.6, further states that “[s]pecial care will be taken to
see that any written statement and/or notes are secured in the case file and retained
for purposes of the Jencks Act.21” This same CID policy also outlines procedures for the
retention of case notes associated with investigations that take place in deployed areas,
and how agent’s notes regarding investigations in deployed areas will be forwarded to the
U.S. Army Crime Records Center. Field Manual 3-19.13, “Law Enforcement Investigations,”
January 10, 2005, describes the importance of documenting the initial actions and
observations of the first military policeman to respond to an incident and how they are
vital in providing information to substantiate investigative considerations. Investigative
case notes are maintained with the local case file and are destroyed IAW investigative file
retention standards in CID policy.

NCIS guidance specifies that agents on a Special Agent Afloat (SAA)22 assignment can
destroy investigative case notes no longer required for administrative/court-martial
action upon completion/termination of their assignment. However, if administrative/
court-martial action is being considered and/or pending, “rough notes” should be
forwarded to the homeport NCIS Resident Agency for inclusion in the case file. NCIS
guidance mandates that accurate and complete investigative documentation, supported
by investigator notes and other pertinent documentation, obtained during the course of
an investigation be placed in the case file. NCIS policy requires case activity records
(CAR), case review records (CRR), agent notes, and investigative plans be kept in the case


	21	
       The Jencks Act (section 3500, title 18, United States Code [18 U.S.C. § 3500]), requires the government (prosecutor) to
       produce a verbatim statement or report made by a government witness or prospective government witness (other than
       the defendant), but only after the witness has testified.
	22	
       The NCIS SAA Program was initiated in Europe in March 1967. Since its inception, its purpose has been to provide
       professional investigative support to afloat operational elements of the Department of the Navy throughout the world.




                                                                                                                                 DODIG-2013-091 │ 19
Finding



                 file while the investigation is open. The case file, CAR, CRR, and case agent’s notes can be
                 destroyed, if they are no longer needed, 1 year after the case is closed. NCIS Manual 1,
                 Chapter 19, “File Retention and Disposal of Closed Case Law Enforcement and CI/CT/CIO
                 Investigations and Security Clearance Adjudication Cases,” October 2007, supplements
                 SECNAV M-5210.1 and further defines those NCIS files to be destroyed or retained. NCIS
                 Manual 1, Chapter 19, excludes cases “. . . awaiting judicial, administrative or appellate
                 action . . .” from the 1-year destruction requirement and requires them to be maintained
                 in “Extended Retention” files.

                 Labeling of CID case notes with the originator’s name, date, place, and case number was
                 not always accomplished. AFOSI consistently used a cover sheet to clearly label case agent
                 notes in the investigative case file. Additionally, there were disparate levels of ease in
                 retrieving case notes when we requested them. The AFOSI case notes were all maintained
                 in the investigative case file at the file repository to allow for easy retrieval. The CID
                 agent notes were maintained in the case file at the field unit where the investigation was
                 conducted. CID agent notes were retrieved in response to our request, with only a few
                 exceptions. With the exception of five investigations reviewed, the NCIS case agent notes
                 were either destroyed IAW Navy and NCIS policy or not maintained in the case file or in
                 the case agent’s possession and therefore, were not retrievable. In a few instances among
                 all of the MCIOs, we found notes pertaining to proposed investigative leads annotated
                 in case notes that were not accomplished, nor was there additional documentation
                 explaining why these leads had not been accomplished. However, when available, case
                 notes provided pertinent details of interviews, crime scenes, and other investigative
                 activity that was later incorporated into the respective report of investigation.


                 Demographic and Other Case Data
                 In addition to analyzing the cases for compliance with guiding policies, we gleaned
                 information related to various topics including: alcohol use by the subject and victim; age
                 ranges; pay grades; locations where the offenses occurred; the relationship, if any, between
                 the subject and victim; numbers of unrestricted cases from previously restricted reports;
                 primary offenses investigated; cases with multiple subjects and victims; comparisons of
                 military pay grades between subjects and victims; and various other items. We did not
                 draw conclusions concerning the data. The data are for information only and for possible
                 future analysis if compared to data gleaned from comparable statistical samples. See
                 Appendix C for details.




20 │ DODIG-2013-091
                                                                                                      Finding



Conclusions
Most of the cases we reviewed (445 of 501 cases or 89 percent) met investigative standards
or did not have significant deficiencies. Eleven percent (56 of 501) of the cases we reviewed
had significant deficiencies. We returned the cases with significant deficiencies to the
MCIOs for resolution. A total of 83 cases (17 percent) had no deficiencies. Eighty-one
percent of the remaining cases (362 of 445) had deficiencies; however, the deficiencies
did not have a significant impact or an adverse effect on the investigation.

We found 56 of 501 (11 percent) cases had significant deficiencies that likely affected the
outcome of the investigation. Significant deficiencies included:

         •	 key evidence was not collected from the crime scene, the victim, or the subject;

         •	 crime scene examinations were not completed, not completed thoroughly, or
            not completed before the loss of crucial evidence;

         •	 witness interviews were not thorough or not conducted; and

         •	 subject or victim interviews were not thorough or reinterviews of subject or
            victims did not sufficiently develop new information.

Interviews
Thoroughness and documentation of MCIO investigative interviews need improvement.
AFOSI needs policy guidance on investigating or explaining inconsistencies in statements
provided by victims, witnesses, subjects, and suspects. Moreover many MCIO investigations
did not clearly establish the elements of the offense and did not resolve investigative
inconsistencies in statements provided by victim(s), witnesses, and subjects/suspects.

The CID process of obtaining written statements in the form of narrative followed by
questions and answers is the most effective in obtaining the required information from
victim(s) and in establishing the elements of the offense(s) being investigated.


Collection of Evidence
MCIO policies regarding collection of physical evidence need improvement. CID and
AFOSI policy guidance does not direct the collection of clothing articles that a victim or
suspect may have placed on themselves shortly after the assault, if different from the
clothing worn during the assault. Although NCIS policies recommend collecting these
items, it is discretionary. NCIS and AFOSI policy regarding the collection of clothing
articles worn by the victim and suspect during the assault is not directive or authoritative




                                                                                            DODIG-2013-091 │ 21
Finding



                 and allows investigators discretion as to when and what pieces of physical evidence they
                 must collect.


                 Crime Scene Examination/Search
                 The policies and supervision regarding crime scene examinations for NCIS and AFOSI are
                 not adequate. NCIS policy addresses crime scenes; however, it uses the word “should”
                 throughout the guidance and due to this ambiguity, does not specifically require an
                 investigator to conduct a crime scene examination. AFOSI lacks crime scene examination
                 policy guidance. It has a crime scene manual, but it is a guide and not a policy document.


                 MCIO/Legal Coordination and Collaboration
                 NCIS policy regarding MCIO/legal coordination and collaboration is not adequate. It does
                 not address the need for NCIS investigators to notify or coordinate with their servicing
                 JA upon initiating an investigation. Further, NCIS policy does not create a requirement
                 for continued coordination between investigators and legal personnel throughout the life
                 cycle of an investigation.


                 Report of Investigation Documentation
                 NCIS and AFOSI can better support action commanders, legal personnel, and other
                 customers by providing readily identifiable information regarding the location(s),
                 dates, and times of occurrence, as well as offenses under investigation in each report of
                 investigation.


                 Timely Records Check
                 CID and NCIS policy guidance on records checks needs improvement. CID guidance
                 regarding records checks does not provide a definitive timeliness requirement. NCIS
                 policy establishes an indirect timeliness requirement that may contribute to the poor
                 compliance noted in our review. The NCIS policy that relates to records checks of
                 suspects and victims does not have a timeliness requirement. However, NCIS Manual 1,
                 Chapter 25, “SSD Report Writing,” January 2010, requires records checks to be included
                 in the ROI (Open), that is, required to be produced within 1 day or 3 days, depending
                 on the priority of the investigation, and when an investigation is initiated. AFOSI policy
                 AFOSIMAN 71‑118, volume 4, “General Investigative Methods,” April 2009, pertaining to
                 the completion of records checks is specific and requires investigators to obtain “as much
                 detail and background about the investigation as possible before an interview.”




22 │ DODIG-2013-091
                                                                                                     Finding



Investigative Case Notes
CID and NCIS policies regarding the retention of investigative case notes raise both
practical and legal issues. AFOSI retains case notes permanently, but both CID and NCIS
dispose of case notes at some point following adjudication and completion of the appeals
process. We referred this issue to the DoD IG Policy and Programs Division to determine
the need for DoD policy on the retention of investigative case notes and other internal
documents, such as the NCIS CAR and CRR, and to determine whether MCIO policies
comply with Federal law, such as the Jencks Act.


Missing Cases
The process NCIS uses to transfer closed investigative files from field elements to the NCIS
Headquarters Records Management Division for digitization and subsequent destruction
of hard copy files needs improvement to preclude the loss of critical criminal record files
that require permanent retention. NCIS policy establishes the method that case files are
to be sent, how the Records Management Division confirms receipt of the investigative
files, and when the copy of the case file maintained by the field unit is to be destroyed.
Despite the policy guidance, NCIS could not locate two cases requested by the review
team.


SARC Notifications
In spite of DoD policy that requires SARC notifications in all sexual assault complaints,
NCIS policy does not require SARCs to be notified. Notwithstanding, NCIS investigators
documented SARC notifications in 71 of 157 investigations.


Management Comments on the Report and Our
Response
Some management comments highlighted initiatives enacted by the MCIOs subsequent to
the completion of our fieldwork and preparation of the draft report. We appreciate the
efforts undertaken to improve MCIO sexual assault investigations; however, we did not
modify our report to reflect programmatic changes that occurred after the draft report
was issued.

The Director, NCIS, expressed concerns that we evaluated NCIS investigations against DoD
and NCIS policies that did not exist in 2010, and our report does not reflect the current
status of NCIS’ adult sexual assault investigation program. We responded by memorandum
(May 13, 2013) and assured the Director, NCIS, that we relied on the information NCIS
provided in response to our data call of November 29, 2011, and coordination with NCIS



                                                                                           DODIG-2013-091 │ 23
Finding



                 representatives to identify the applicable Navy and NCIS policies. We agree with the
                 Director’s assertion that our evaluation does not reflect the current status of NCIS’ adult
                 sexual assault investigation program. The scope included sexual assault investigations
                 closed in 2010. The results provide a snapshot for that timeframe only. We met with
                 NCIS representatives to discuss our evaluation of NCIS management comments on
                 May 5, 2013. NCIS comments not related to the recommendations are addressed in the
                 following sections.


                 Report Section: Background
                 NCIS Comments
                 The draft report stated “Both NCIS and AFOSI, in accordance with Service policies,
                 exercised independent discretion regarding the investigation of a wrongful sexual
                 contact, indecent acts, or indecent exposure offenses based on the complexity of the
                 case.” NCIS commented that NCIS policy requires the initiation of an investigation into all
                 wrongful sexual contact (formerly indecent assaults) allegations. Investigative guidance,
                 General Administration memorandum (GEN ADMIN): 23A-0056 provided to all NCIS field
                 elements on December 9, 2008, reiterated that “[a]ll allegations of wrongful sexual acts or
                 contacts shall be investigated.”


                 Our Response
                 Within the scope of our evaluation, Navy and NCIS guidance provided conflicting direction
                 relative to the initiation of wrongful sexual contact and indecent assault investigations.
                 Navy policy, SECNAV Instruction 5430.107, “Mission and Functions of the Naval Criminal
                 Investigative Service,” December 28, 2005, para 3.i., defines a “Major Criminal Offense”
                 as “[a]ny offense punishable under the Uniform Code of Military Justice (UCMJ), or
                 similarly framed federal, state, local, or foreign statutes, by confinement for a term of
                 more than one year.” Further, para 7.a., states in part “NCIS is a federal law enforcement
                 agency that . . . investigates major criminal offenses, . . . .” The maximum punishment for
                 wrongful sexual contact established by the Manual for Courts-Martial, 2008 MCM, Part
                 IV, Article 120 f (7), is “[d]ishonorable discharge, forfeiture of all pay and allowances,
                 and confinement for 1 year.” Therefore, technically, wrongful sexual contact (formerly
                 indecent assault) is not a “major criminal offense” as defined by Navy policy, and not
                 an NCIS investigative responsibility. This is reinforced by NCIS interim policy: GEN
                 ADMIN: 23B-0025, JUN05, which states: “Felony level sexual assaults will continue to be
                 investigated/tracked through disposition by NCIS, and minor incidents will be properly
                 referred to the appropriate military authority for resolution.” This policy has not been
                 rescinded or incorporated into any other NCIS policy. A May 1, 2013, e-mail from NCIS




24 │ DODIG-2013-091
                                                                                                    Finding



confirmed that this GEN ADMIN: 23B-0025 is still valid. We were not aware of NCIS GEN
ADMIN: 23A-0056, 2.e., 09DEC08, during the course of this evaluation.

With the publication of DoDI 5505.18, “Investigation of Adult Sexual Assault in The
Department of Defense,” January 25, 2013, the MCIOs will investigate all sexual assault
complaints to include wrongful sexual contact.


Report Section: Victim Interview and Post-Interview
Deficiencies
NCIS Comments
NCIS disagreed with our finding that the “victim was not issued a DD Form 2701,” in
111 instances. NCIS commented that its policy, NCIS Manual 3, Chapter 6, section 20.4, m.,
requires documentation of issuance of the DD Form 2701 in the Case Activity Record and
the Investigative Plan, which are maintained as notes in the original case file.


Our Response
As documented previously in this report, NCIS did not provide case notes (including case
activity records, case review records, investigative plans, etc.) for our review. IAW NCIS/
Navy policy guidance, they destroyed these items with the case file.

Therefore, we revised the report to state: “In 111 instances, we were unable to verify
NCIS’ compliance with the issuance of the DD Form 2701, because the case activity
records, where the information is normally documented, had been destroyed IAW
SECNAV M-5210.1.”


Report Section: Evidence Deficiencies
NCIS Comments
NCIS did not agree with our finding that in three NCIS investigations they did not submit
evidence to USACIL. NCIS commented they reviewed the three investigations and
found that evidence in one case was submitted to USACIL. Further, the remaining two
investigations involved subjects who claimed the sexual acts were consensual, and IAW
policy, USACIL will not conduct an analysis when subjects admit to the sexual act but
claim consent.


Our Response
We reduced the findings from three investigations to two. In one instance, evidence had
been submitted for DNA examination, but additional evidence, which was probative to



                                                                                          DODIG-2013-091 │ 25
Finding



                 the investigation, was not subsequently submitted. In the second investigation, we found
                 that although the case involved a subject claiming consensual sex, the evidence deemed
                 probative was not DNA evidence and should have been submitted.

                 Additionally, NCIS’ assertion that USACIL will not accept evidence on cases when
                 the subject admits sexual contact but claims consent is not accurate. USACIL has not
                 published policies restricting the submission of DNA for analysis when consent was an
                 issue. The only policy USACIL was aware of had been issued by CID on February 3, 2005,
                 Operational Memorandum 001-05, “Submission of Physical Evidence to Serology Division,
                 U.S. Army Criminal Investigation Laboratory (USACIL) for DNA Examination/Analysis.”
                 This policy memorandum stated that USACIL will accept evidence for DNA analysis under
                 the following conditions:

                                  a.	 The suspect recants his statement.

                                  b.	 The suspect’s confession/admission is anticipated to
                                     become inadmissible. This cannot be a “what if”, but a
                                     documented issue with the confession/admission (i.e.,
                                     no or improper rights advisement, failure to obtain the
                                     suspect a lawyer when requested, etc).

                                  c.	 Charges have been preferred for courts-martial or civilian
                                     court, and the trial counsel, with the explicit approval of
                                     the Staff Judge Advocate or Chief of Justice, or local civilian
                                     prosecutor requests that the examination be conducted
                                     and is needed for trial.

                            Evidence meeting these exceptions will be forwarded to USACIL
                            for examination. The SAC will review the laboratory request. SAC
                            reviews will be annotated in either the Agent Activity Summary
                            (AAS) or on the actual laboratory request.

                 NCIS does not have an organizational policy addressing the submission of DNA evidence
                 when the subject of a sexual assault allegation claimed that the encounter was consensual.




26 │ DODIG-2013-091
                                                                                                     Finding



Report Section: Investigative Coordination/Notification
Deficiencies
NCIS Comments
NCIS disagreed that investigators did not notify the SARC in 86 instances (Table 11).
NCIS stated that NCIS agents work with SARCs to ensure all victims are assigned a Victim
Advocate who accompanies the victim during the NCIS interview, if they so desire, but
NCIS policy, NCIS Manual 3, Chapter 34-4.4, does not require agents to document SARC
notification in NCIS Reports of Investigation.


Our Response
DoDI 6495.02, para E4.3.1, requires the SARC be notified of all incidents of reported sexual
assault. The SARC, in turn, will assign a Victim Advocate to assist the victim.

We revised Table 11 in the NCIS column on the SARC notification row to reflect “N/A”,
and we revised Table Note 3 to reflect that although neither Navy nor NCIS policies
require SARC notifications, they are required by DoD policy. Notwithstanding, we found
documentation that NCIS personnel notified a SARC in 71 of 157 investigations.

In addition, we added a recommendation that the Director, NCIS, revise policies to coincide
with DoD policy requirements and require documentation of SARC notifications in the
case file or investigative report.


Report Section: Investigative and Administrative
Documentation Deficiencies
NCIS Comments
NCIS disagrees that it was deficient in 141 investigations for supervisor reviews
(Table 12). NCIS does not require case reviews to be documented in the ROI. The case
reviews are documented in the case activity record, which is maintained in the original
case file as notes. NCIS does not require notes to be sent to NCISHQ. The field case files
are destroyed 1 year after a case is closed, or, with legal authorization, upon completion
of the appeal process if the investigation resulted in a conviction. As this review involved
investigations initiated during 2010; notes were no longer available for review.

IAW NCIS Manual 1, Chapter 19, section 19-8.1 and 19-8.1(a), NCIS stated that the

            FO [field office] and NCISRA [NCIS resident agency] are the
            primary field repositories for closed investigations and operations.




                                                                                           DODIG-2013-091 │ 27
Finding



                              . . . The FO and NCISRA shall retain files on closed investigations,
                              operational, and collection matters to include specific phase
                              Polygraph Examination cases for a period not to exceed one year
                              as prescribed in SECNAV M-5210.1.

                 At the field level, this includes agent notes and other material (for example, original
                 correspondence).      The Manual states, “Exceptions include cases awaiting judicial,
                 administrative, or appellate action . . . .”


                 Our Response
                 As a result of not being able to verify that the reviews were accomplished, we modified
                 Table 12, under the NCIS column on the pertinent line to reflect “N/O” [not observable]
                 and revised the report by adding Table Note 2.


                 Report Section: Investigative Case Notes
                 NCIS Comments
                 NCIS did not agree that labeling of NCIS case notes with the originator’s name, date, place,
                 and case number was not always accomplished. The case notes were not available for this
                 review due to NCIS’ policy of maintaining the notes with the original case file in the field
                 office and the destruction policy, as previously noted.

                 In accordance with NCIS policy, NCIS Manual 1, Chapter 19, sections 19-8.1 and 19-8.1(a),
                 the

                              FO and NCISRA are the primary field repositories for closed
                              investigations and operations . . . . The FO and NCISRA shall retain
                              files on closed investigations, operational, and collection matters
                              to include specific phase Polygraph Examination cases for a period
                              not to exceed one year, as prescribed in SECNAV M-5210.1.

                 At the field level, this includes agent notes and other material (for example, original
                 correspondence). The Manual also states, “Exceptions include cases awaiting judicial,
                 administrative, or appellate action . . . .”


                 Our Response
                 In response to our data call memorandum, NCIS provided case notes related to only five
                 investigations. Our finding was based on only that material. Due to the small sample
                 reviewed, we removed that portion of our finding related to NCIS.



28 │ DODIG-2013-091
                                                                                                    Finding



Report Section: Investigative Case Notes
NCIS Comments
NCIS did not agree with our conclusion that NCIS retention of investigative case notes
raises a legal issue. They stated that NCIS is in full compliance with legal requirements
established by the Jencks Act because notes are maintained with the original case file
throughout the life of the investigation, to include the appeal process for investigations
that result in a criminal conviction (NCIS Manual 1, Chapter 19, section 19-8).


Our Response
NCIS’ assertion of being in full compliance with the Jencks Act is incorrect. Further
evaluation of the data collected has revealed that case agent notes for five investigations
under appellate review were not provided for our review. Four of the investigations we
reviewed are still under appellate review, and the fifth case completed appellate review
subsequent to the conclusion of our case review.

In response to our data call memorandum, NCIS provided notes and materials associated
to only five investigations. We were informed that all other notes and case review records
were destroyed IAW policy. Based on that assertion, we conclude that NCIS improperly
destroyed case documentation.

We stand by our conclusion that NCIS policy on retention of investigative case notes raises
a legal issue.


Recommendations, MCIO Comments, and Our
Response
Added Recommendations
We added Recommendation 9 for NCIS to require the notification of SARCs in all reported
sexual assault investigations and document the notification within the investigative files.


1.	 Adequacy of Investigations
We recommend that the Director and Commanders of the Military Criminal Investigative
Organizations emphasize thorough and timely completion of all sexual assault
investigations to ensure that all investigations are completed as required by DoD, Military
Service, and command regulatory guidance.




                                                                                          DODIG-2013-091 │ 29
Finding



                 CID Comments
                 The Commander, CID, agreed with our recommendation. CID has issued guidance to all
                 field elements re-emphasizing the need to conduct timely and thorough sexual assault
                 investigations, noting the comments and recommendations provided in the report.


                 NCIS Comments
                 The Director, NCIS, agreed with our recommendation. NCIS emphasizes the thorough and
                 timely completion of all NCIS investigations. The message of “Operational Excellence” as it
                 has been referred to within NCIS, permeates throughout all NCIS investigative disciplines
                 and has been a consistent message to field and headquarters components. Additionally,
                 in recent years NCIS has implemented enhancements to its management oversight/
                 inspection processes. The Staff Assistance Visit (SAV) Program is used to assess field
                 performance and adherence to “Operational Excellence,” focusing on investigative quality,
                 timeliness, and compliance with NCIS policy and standards. SAVs are initiated by the NCIS
                 Deputy Director at his/her discretion. The Quality Assurance Visit Program is a program
                 in which the NCIS geographic executive assistant directors for Atlantic, Pacific, and Global
                 Operations conduct regularly scheduled visits to field offices to assess investigative
                 quality, timeliness, and compliance with NCIS policy and standards.


                 AFOSI Comments
                 The Commander, AFOSI, agreed with our recommendation. Sexual assault investigations
                 have been an AFOSI Commander’s special interest item (SII) for more than a year and
                 have received significant, ongoing, high-level attention across the Command. In June
                 2012, Commander, AFOSI, published a Notice to Airmen (NOTAM) directing all AFOSI
                 agents to increase focus and attention on improving the sufficiency and timeliness of
                 AFOSI’s sexual assault investigations. The Commander, AFOSI, directed that all sexual
                 assault investigations be reviewed and approved for investigative sufficiency before the
                 final investigative report is published. The Commander, AFOSI, repeated this message
                 through 2012 and into 2013 at leadership forums and commander’s calls. In December
                 2012, the Commander, AFOSI, published a second NOTAM to inform field agents AFOSI
                 would soon begin investigating abusive/aggravated sexual contact allegations and again
                 communicate the importance of urgently and sufficiently investigating all allegations of
                 sexual misconduct and ensuring that the facts are accurately documented. In addition,
                 in January 2012, AFOSI initiated a headquarters AFOSI case review process to assess
                 investigative sufficiency.




30 │ DODIG-2013-091
                                                                                                  Finding



Our Response
We recognize and applaud the MCIOs’ commitment to timely and thorough sexual
assault investigations. NCIS implementation of “Operational Excellence” coupled with
its SAV program illustrates its recognized responsibility for improving the investigative
processes for the organization. We also acknowledge AFOSI’s efforts to highlight the
significance of sexual assault investigations by designating the crime of sexual assault
as an AFOSI Commander’s SII for over a year. It is clear that the MCIOs understand the
impact that the quality of their sexual assault investigations has on the Department. No
further comments are required.


2.	 Interviews
        a.	We recommend that the Director and Commanders of the Military
           Criminal Investigative Organizations place increased emphasis on
           interview thoroughness through training, supervision, and policy
           improvements.

CID Comments
The Commander, CID, agreed with our recommendation. CID has issued guidance to all
its field elements re-emphasizing the need to conduct timely and thorough sexual assault
investigations.


NCIS Comments
The Director, NCIS, agreed with our recommendation. NCIS acknowledges interview
and interrogation techniques are central to the success of any investigations. The NCIS
Training Academy dedicates approximately 75 hours to interview and interrogation
techniques: 25 hours during the Criminal Investigations Training Program (CITP) and
50 hours during Special Agent Basic Training Program (SABTP). NCIS has also partnered
with the U.S. Army to further develop and expand the USA Advanced Sexual Assault Course
to include NCIS investigative perspective and practices. Currently, NCIS personnel attend
training at Federal Law Enforcement Training Center (FLETC) and Fort Leonard Wood.


AFOSI Comments
The Commander, AFOSI, agreed with our recommendation. AFOSI stated it has improved
the interview training provided to its agents. AFOSI has taught the cognitive interview
(CI) technique since August 2012, at the behest of AFOSI’s operational psychologists,
in its advanced Sex Crimes Investigations Training Program course. AFOSI claims the
CI technique, backed by many years of peer-reviewed scientific research, is expected




                                                                                        DODIG-2013-091 │ 31
Finding



                 to empower sex crimes victims and improve their ability to provide more detailed
                 information, which should enhance the Air Force’s ability to pursue appropriate legal
                 action in these cases. Further, the FLETC is planning to incorporate the CI technique
                 into the initial skills training course attended by all AFOSI agent trainees. AFOSI are also
                 teaching CI in our Advanced General Crimes Investigations Course, primarily attended
                 by unit superintendents who oversee field investigations. Superintendents will also be
                 given the tools to provide the training to field agents they supervise and to assess its
                 proper use. Also, AFOSI has begun sending agents, who are assigned to installations
                 with a high prevalence of sex crimes, to attend FLETC’s Advanced Interviewing for Law
                 Enforcement Investigators Training Program. Finally, in 2012, AFOSI incorporated a
                 4-week interviewing and interrogation block into its Basic Extension Program.


                 Our Response
                 The MCIO’s comments are responsive to our recommendation. No further comments are
                 required.

                          b.	 We recommend that the Director, Naval Criminal Investigative Service,
                             and the Commander, Air Force Office of Special Investigations, evaluate
                             the benefits of using the combination of narrative and question and
                             answer interview format to help ensure that facts and circumstances are
                             documented thoroughly.

                 NCIS Comments
                 The Director, NCIS, agreed with our recommendation and recognizes the combination of
                 narrative and question and answer interview format and does not prohibit its use. There
                 is no plan at this time to effect a change for taking statements, but NCIS will continue to
                 emphasize the requirement for thorough statements regardless of the format used.


                 AFOSI Comments
                 The Commander, AFOSI, agreed with our recommendation. AFOSI has assessed the issue
                 and made a research-informed decision not to use a question and answer format in the
                 written statements obtained from subjects, victims and witnesses, based on input from
                 our investigative psychologists and judge advocates. AFOSI stated that a more open, less
                 suggestive questioning style is more appropriate to all interviews and interrogations. In
                 addition, AFOSI policy directs agents to videotape all subject interviews. Videotaping
                 subject interviews ensures both the exact words and context are accurately documented.
                 AFOSI stated that its current interviewing style, together with written agent notes and




32 │ DODIG-2013-091
                                                                                                    Finding



recorded subject interviews, provides the best method for conducting and documenting
interviews.


Our Response
NCIS and AFOSI management comments are responsive. Both agencies evaluated their
current policies regarding the use of a combined narrative and question and answer
statement style as recommended. Although a combined narrative and question and
answer style statement will not be prohibited by either organization, they assessed
that their current style for taking statements is a more efficient means for obtaining
information through written statements. No further comments are required.

         c.	 We recommend that the Commander, Air Force Office of Special
              Investigations, evaluate current policy and enhance its guidance on
              investigating subject/suspect alibis and the resolution of significant
              inconsistencies between statements of victims, witnesses, subjects, and
              suspects.

AFOSI Comments
The Commander, AFOSI, agreed with our recommendation and believes its current policy
and procedures for scoping investigations to the facts and circumstance of each case is
appropriate for conducting investigatively sufficient cases. AFOSI has no specific policy
regarding investigating subject/suspect “alibis,” per se. Investigating the validity of a
subject/suspect’s alibi is addressed as part of a complete, properly scoped investigation
based on the information and circumstances involved in each case, including possible
defenses the accused may offer. AFOSI’s requirement for close coordination with Air Force
JAG personnel throughout the lifecycle of investigations further ensures any anticipated
alibi is addressed during the investigation. AFOSI does not feel it needs additional policy
specifically pertaining to investigating subject alibis.


Our Response
AFOSI comments are responsive. AFOSI evaluated our recommendation and found
its current policy sufficient to meet its investigative mission. We recognize the newly
implemented practice of reviewing and evaluating 15 percent of its closed cases monthly
may reduce or eliminate our concerns with subject/suspect alibis or inconsistencies
between statements of victims, witnesses, suspects, or subjects during the course of their
investigations. No further comments are required.




                                                                                          DODIG-2013-091 │ 33
Finding



                 3.	 Collection of Evidence
                 We recommend that the Director and Commanders of the Military Criminal
                 Investigative Organizations.

                          a.	 Evaluate their existing policies and enhance their guidance regarding
                             the collection of clothing worn by suspects and victims subsequent to a
                             sexual assault.

                 CID Comments
                 The Commander, CID, agreed with our recommendation. CID has issued guidance to all
                 its field elements re-emphasizing the need to conduct timely and thorough sexual assault
                 investigations.


                 NCIS Comments
                 NCIS disagreed and stated that as the current policy reflects that clothing worn by the
                 victim or left at the scene by the subject should be seized vice must be seized. This is
                 particularly important if the sexual assault just occurred and/or if the clothing has not
                 been washed. Discretion must be given if the clothing has been washed unless required
                 for corroboration purposes.


                 AFOSI Comments
                 The Commander, AFOSI, disagreed with our recommendation. AFOSI stated that the
                 best approach is for agents to assess and identify items with evidentiary value, through
                 mandatory expert forensic science consultation, in all sexual assault cases, early in an
                 investigation. This approach better ensures all items that may have evidentiary value are
                 identified and prioritized for collection in consideration of the facts and circumstances of
                 the incident. In cases when a report is made soon after the assault, the clothing a victim
                 changed into or worn by the victim at the time of the sexual assault medical examination
                 would be seized as part of a Sexual Assault Forensic Examination (SAFE). In such
                 instances, the clothing is collected as evidence and, in turn, agents must consider locating
                 and seizing the clothing worn by the victim at the time of the assault. In cases involving
                 a delayed report, the clothing a victim changed into may have since been washed and no
                 longer offer a reasonable likelihood of containing evidence. Likewise, AFOSI agents are
                 also trained to consider, locate, and seize the clothing the suspect wore and the clothing
                 he/she changed into after the assault as these clothing items may too contain evidence
                 and should, therefore, be located and seized. AFOSI will soon be publishing an updated
                 crime scene manual that discusses the evidentiary value of various types of evidence.
                 This manual, along with the existing mandatory expert forensic science consultation in



34 │ DODIG-2013-091
                                                                                                     Finding



every sex crimes investigation, will further assist agents in identifying and collecting the
right evidence, based upon the unique facts and circumstances of each case.


Our Response
MCIO management comments are responsive to the recommendation. Both NCIS and
AFOSI evaluated their processes as recommended and asserted that their current
guidance sufficiently addresses the issue of collecting clothing worn by both the subject
and victim subsequent to an alleged assault. They maintain that discretion on whether
to seize items of evidence is an important aspect of the criminal investigative process. No
further comments are required.

         b.	Conduct new or additional refresher training to highlight the critical
            nature physical evidence plays in sexual assault investigations and the
            subsequent prosecutions.

CID Comments
The Commander, CID, agreed with our recommendation.


NCIS Comments
The Director, NCIS, agreed with our recommendation. NCIS has continuously provided
training in conducting sexual assault investigations, which includes the significance of
physical evidence. In addition, NCIS has partnered with the U.S. Army to further develop
and expand the USA Advanced Sexual Assault Course to include NCIS investigative
perspective and practices. Currently, NCIS personnel attend training at FLETC and Fort
Leonard Wood.


AFOSI Comments
The Commander, AFOSI, agreed with our recommendation and is currently altering its
annual sexual assault investigations refresher training to highlight it. AFOSI anticipates
that the revised refresher training will be completed by September 1, 2013.


Our Response
MCIO comments are responsive to our recommendation. No further comments are
required.

         c.	Add evidence collection in sexual assault investigations as a special
            interest item during command inspections for the next 2 fiscal years at
            all levels.



                                                                                           DODIG-2013-091 │ 35
Finding



                 CID Comments
                 The Commander, CID, agreed with our recommendation.


                 NCIS Comments
                 The Director, NCIS, disagreed with our recommendation and stated that evidence
                 collection in all investigations is by procedure already part of the review process from
                 the first-line supervisor review to the NCIS IG inspection process. NCIS will continue to
                 ensure all evidence is handled in accordance to policy and procedure.


                 AFOSI Comments
                 The Commander, AFOSI, disagreed with our recommendation. However, AFOSI agreed with
                 the need for additional, special emphasis on ensuring that the right evidence is collected
                 and processed in sexual assault cases, relational to the probative value the evidence might
                 have based on the unique circumstances in each case. Therefore, in January 2012, AFOSI
                 created the Performance Management Branch (PMB), a team of seven seasoned agents
                 charged with reviewing a minimum of 15 percent of closed cases monthly to ensure
                 investigative sufficiency. The PMB, using updated case review checklists, evaluates
                 whether investigations meet a comprehensive list of requirements, to include whether
                 agents collected all probative evidence. Reviewers compare the specific guidance offered
                 to agents by their servicing forensic science consultant


                 Our Response
                 AFOSI comments are responsive and meet the intent of the recommendation. On inquiry,
                 NCIS provided details on “Operational Excellence” efforts published in December 2011
                 and inspection program changes implemented in November 2010, which for the most part
                 postdate the scope of this evaluation. The “Operational Excellence” program amplifies
                 NCIS’ investigative oversight responsibilities at strategic and tactical levels; specifically
                 addressing field unit execution of the NCIS mission and thoroughness of investigations.
                 The Deputy Director emphasized sexual assault investigations and “SAC [Special Agent In
                 Charge] Interest” and “functional awareness” of the overall status and timeliness of these
                 investigations. In addition, during FY 2011, NCIS implemented a new inspection schedule
                 for its management visit program. These inspections target a number of areas across the
                 NCIS mission spectrum to include case reviews and evidence processes. Although NCIS
                 disagreed with our recommendation, we find the steps taken subsequent to the period of
                 our evaluation satisfy the intent of our recommendation. Therefore, NCIS comments are
                 responsive. No further comments are required.




36 │ DODIG-2013-091
                                                                                                    Finding



4.	 Crime Scene Examination/Search
We recommend that the Director, Naval Criminal Investigative Service, and the
Commander, Air Force Office of Special Investigations, evaluate their policies and
enhance their supervision regarding their agents’ response to known and available
crime scenes and evaluate the necessity for conducting a crime scene examination
for all sexual assault investigations.


NCIS Comments
The Director, NCIS, agreed with our recommendation and will continue to place emphasis
on the requirement to conduct crime scene documentation for delayed sexual assault
reports. NCIS is unable to place a mandate for a crime scene examination for all sexual
assault investigations because agents, at times, do not have access to the scene because of
the location (for example, a foreign location such a port visit or combat zone).


AFOSI Comments
The Commander, AFOSI, agreed with our recommendation. On March 1, 2013, AFOSI
added into policy the requirement that all crime scenes, when possible, must be located
and documented (photographed/sketched) to accurately convey the location of the
incident.


Our Response
NCIS and AFOSI’s comments are responsive. Our observations do not include instances
when the reasons for not conducting crime scene examinations provide well-documented,
justifiable reasons. In instances, such as the examples provided in NCIS comments, the
lack of a crime scene examination or validation should be well-documented and justified.
No further comments are required.


5.	 MCIO/Judge Advocate General Coordination and
    Collaboration
We recommend that the Director, Naval Criminal Investigative Service, evaluate
its current policy and enhance its guidance regarding the timely notification/
coordination with servicing judge advocate(s) upon the initiation of sexual assault
cases, as well as the continued coordination with the servicing judge advocate(s)
until final case disposition.




                                                                                          DODIG-2013-091 │ 37
Finding



                 NCIS Comments
                 The Director, NCIS, agreed with our recommendation. NCIS stated that NCIS requires
                 investigators to notify or coordinate with the “convening authority” upon initiating a case,
                 which often involves “SJA” for the command.

                 They further commented that NCIS policy does not require notification or coordination
                 with the trial service office. NCIS commented that its current policy regarding “resolved
                 criminal investigations” with military personnel identified as subjects or co-subjects,
                 NCIS-3, Chapter 6-16.2., requires NCIS agents to brief “the military commander who has
                 disciplinary responsibility for the individuals; this briefing will be documented in a ROI
                 (INTERIM).” NCIS did not disagree with the recommendation, but did not agree with
                 the draft report comments as written. Regardless, NCIS are currently changing its policy
                 to ensure that all investigations will be coordinated with the prosecutive agency upon
                 initiation of an investigation.


                 Our Response
                 We did not change our recommendation based on NCIS comments. However, we found
                 NCIS deficient in 57 investigations for not coordinating with trial counsel. In arriving
                 at this decision, we note NCIS Manual 3, Chapter 6, section 6-2.3, “Investigative Theory
                 and Procedures,” December 2006, states that “strong consideration should be given to
                 early and continuous contact with trial counsel or other appropriate attorneys when
                 conducting an investigation.” As written, NCIS policy allows for discretion regarding trial
                 counsel contacts. Therefore, we revised our findings to read “although NCIS policy does
                 not require coordination with trial counsel, it ‘strongly encourages’ early and continuous
                 contact with trial counsel or other appropriate attorney. NCIS documented such contacts
                 in 100 instances in the 157 reports we reviewed.” Although NCIS did not agree with our
                 evaluation of its processes, NCIS intends to establish a requirement that is responsive to
                 our recommendation. No further comments are required.


                 6.	 Report of Investigation Documentation
                 We recommend that the Director, Naval Criminal Investigative Service, and the
                 Commander, Air Force Office of Special Investigations.

                          a.	Ensure information related to the location(s) of incident, dates and
                             times of occurrence, dates and times the incident(s) were reported,
                             offenses under investigation, and other pertinent administrative data
                             are properly documented within reports of investigations.




38 │ DODIG-2013-091
                                                                                                      Finding



NCIS Comments
The Director, NCIS, agreed with our recommendation and stated that emphasis has been,
and will continue to be placed on ensuring all reports contain thorough and complete
information. IAW NCIS Manual 3, Chapter 25, section 25.1-5.2(a-c), “ROI (OPEN),” the NCIS
Report of Investigation (ROI) Open is primarily an internal NCIS document that reports
the receipt of information, which serves to predicate the initiation of an investigation.

The Manual states:

            The first paragraph of the Narrative portion should clearly state
            the reason for case initiation; i.e., reactive, reciprocal, details, and
            disposition, and if applicable, the relevant statute(s) that is/are
            suspected to have been violated. The ROI (OPEN) should answer,
            at minimum; who, what, where, when, why and/or how the offense
            was committed.”


AFOSI Comments
The Commander, AFOSI, agreed with our recommendation and stated that the location(s)
of the incident, dates and times of occurrence, dates and times the incident(s) were
reported, offenses under investigation, and other pertinent administrative data should be
properly documented within ROIs.


Our Response
NCIS and AFOSI comments are responsive to our recommendation. No further comments
are required.

         b.	 Evaluate the benefits of preparing a report of investigation title page that
            includes the location(s) of incident, dates and times of occurrence, dates
            and times the incident(s) were reported, offenses under investigation,
            and other pertinent administrative data.

NCIS Comments
The Director, NCIS, disagreed with our recommendation and stated that the reporting
system used by NCIS satisfies the requirements of both its military and civilian customers.
The information is contained in the Executive Summary, which is provided in every report
upon initiation.




                                                                                            DODIG-2013-091 │ 39
Finding



                 AFOSI Comments
                 The Commander, AFOSI, agreed with our recommendation and stated that it will further
                 evaluate the benefits of preparing a ROI title page that includes all pertinent administrative
                 data listed by DoD OIG. However, AFOSI stated that its preliminary assessment is that this
                 requirement is not necessary. AFOSI ROIs typically contain all the information identified
                 by DoD OIG. Additionally, action authorities, the appropriate base legal office, and other
                 base authorities are provided updates throughout the investigation. The updates include
                 the case details cited in the recommendation.


                 Our Response
                 NCIS and AFOSI comments are responsive to our recommendation. No further comments
                 are required.


                 7.	 Timely Records Checks
                 We recommend that the Commander, U.S. Army Criminal Investigation Command,
                 and Director, Naval Criminal Investigative Service, evaluate their existing policy and
                 enhance their guidance regarding timely completion of records checks to ensure
                 they adequately support investigations.


                 CID Comments
                 The Commander, CID, agreed and stated that CID has issued guidance to all its field elements
                 re-emphasizing the need to conduct timely and thorough sexual assault investigations,
                 noting the comments and recommendations provided in the report.


                 NCIS Comments
                 The Director, NCIS, disagreed with our recommendation. NCIS asserts that its current
                 policies are adequate. IAW NCIS-1, Chapter 25, section 25.1-5.2.d. “Records Check,” “[w]
                 hen a NCIS investigation is initiated, it is the responsibility of the controlling field office to
                 conduct complete records check of all subjects, co-subjects, and victims.” These database
                 checks are reported in the ROI (OPEN), which must be submitted within 3 business days
                 of initiation of the investigation (OPEN).


                 Our Response
                 CID comments are responsive to our recommendation. No further CID comments are
                 required.




40 │ DODIG-2013-091
                                                                                                         Finding



We believe NCIS guidance on timeliness of records checks needs improvement to enhance
results. NCIS Manual 1, Chapter 25, section 25.1-5.2.d., states “[t]hese database checks
should be conducted at the earliest stage in an investigation with their results reflected
in the ROI (OPEN).” The time requirements are outlined in NCIS Manual 1, Chapter 25,
section 25.1-9.1.b., which establishes criteria for priority (I) and (II) investigations, i.e., 1
and 3 business days, respectively. We believe the records check policy should explicitly
state the time requirement. Unclear policy guidance may contribute to the low compliance
level found in the sample. We stand by our recommendation as written. We request
further comments from NCIS in response to the final report.


8.	 Missing Cases
We recommend that the Director, Naval Criminal Investigative Service.

         a.	 Ensure the full accountability of all NCIS investigative files.

         b.	Correct policies and procedures to preclude the loss of additional
            records.

NCIS Comment
The Director, NCIS, agreed with our recommendation and stated that NCIS has policy to
ensure accountability of NCIS files and will ensure set polices are adhered to in order to
avoid the loss of any case files.


Our Response
NCIS comments are responsive to our recommendation. No further comments are
required.


9.	 Sexual Assault Response Coordinator Notifications.
We recommend that the Director, Naval Criminal Investigative Service, develop
policy that requires its investigators to:

         a.	 Notify the Sexual Assault Response Coordinators in all reported sexual
            assault investigations.

         b.	 Document the notifications within the investigative file.

Management Comments Required
We request that NCIS provide comments on this recommendation.




                                                                                               DODIG-2013-091 │ 41
Appendices




                 Appendix A
                 Scope and Methodology
                 We conducted this review from February 2012 through September 2012. Our work
                 included a review of adult sexual assault investigations completed (closed and
                 adjudicated) in 2010 for investigative sufficiency and compliance with DoD, Service, and
                 MCIO policy requirements effective at the time of investigation while noting observations
                 and deficiencies.

                 We conducted the review in accordance with the professional standards for evaluation
                 established by the Council of the Inspectors General for Integrity and Efficiency. We
                 believe that the evidence obtained provides a reasonable basis for our observations and
                 recommendations based on our objectives. We used professional judgment in making
                 observations and recommendations.

                 We reviewed the MCIOs’ sexual assault investigative policy guidance to assess the extent
                 to which they addressed investigative activity expected to be conducted in response
                 to sexual assault reports. We familiarized ourselves with tasks expected in any sexual
                 assault investigation.

                 At the onset of the review, we sent a data call memorandum to each MCIO requesting
                 the number of sexual assault investigations with adult victims closed and/or adjudicated
                 in 2010 to establish the population. We worked with the DoD IG Quantitative Methods
                 Division to determine a simple random sample number of cases to review based on a
                 desired level of reliability giving us our sample size. The sample size was selected from
                 the population using a 90-percent confidence level, 50-percent probability of occurrence
                 at a 5-percent precision level. We excluded 81 cases from the review for one of three
                 reasons: 1) the investigation was determined to be a monitor-type investigation in which
                 another investigative entity (civilian police agency) conducted the bulk of the investigative
                 activity; 2) adjudication of the case extended into 2011 (therefore, the case was not closed
                 in 2010 even though the investigative activity was complete); or 3) the victim in the case
                 was a juvenile rather than an adult victim. Additionally, the NCIS was unable to locate two
                 cases we identified for review in our sample selection; neither the hard copy file nor the
                 digital copy could be located. Our final total of cases to review was 501 cases.




42 │ DODIG-2013-091
                                                                                                              Appendices



The review of the adult sexual assault investigations was based on offenses defined
under Article 120 UCMJ23 as listed in the table and Article 125, forcible sodomy (of adult
victims). The child sexual assault offenses are grayed-out but are included in the Table
for edification. A limited number of case types (such as wrongful sexual contact) were
not routinely investigated by all MCIOs during this period; however, they fell under the
purview of this review.

Table. Article 120 Sexual Assault Offenses

             Offense/Manual for Courts-Martial, Part IV, Paragraph 45
  Aggravated sexual assault of a child
  Aggravated sexual abuse of a child
  Abusive sexual contact with a child
  Indecent liberties with a child
  Rape
  Wrongful sexual contact
  Aggravated sexual assault
  Aggravated sexual contact
  Abusive sexual contact
  Indecent Acts
  Pandering
  Aggravated sexual assault of a child over 12
  Aggravated abuse of a child
  Abusive sexual contact with a child over 12
  Indecent liberties with a child


We developed a sexual assault case review protocol for each MCIO based on each MCIO’s
investigative policies and procedures. The review protocols addressed, in detail, all
investigative steps required to complete a thorough sexual assault investigation ensuring
compliance with applicable DoD, Service, and MCIO policies that were in effect during the
life of the investigation.

In executing the review, we went to AFOSI and CID headquarters to review their
investigations.             NCIS provided its investigations electronically for us to review;
therefore, we reviewed the files at DoD IG headquarters. In conducting the review, we
noted observations and deficiencies found in the investigative files. An investigation


	23	
       Definitions in the 2007 and 2008 version of the UCMJ were in effect at the time of this review.




                                                                                                         DODIG-2013-091 │ 43
Appendices



                 was classified as significantly deficient if investigative steps or an activity was not
                 undertaken that the reviewer believed to have, or likely would have had, a significant
                 impact and/or resulted in an adverse outcome of the investigation. Not all significantly
                 deficient investigations warranted reopening. An example of a significantly deficient
                 investigation that should be reopened would be an investigation that failed to fully
                 identify and interview all potential victims. In this example, identifying and interviewing
                 additional victims may lead to subsequent prosecution of an offender. The reopening of
                 an investigation would not be expected or beneficial when the MCIO failed to conduct
                 time-critical investigative steps or failed to conduct them according to established policy.
                 Examples include conducting telephone subject and victim interviews or failing to collect
                 crucial evidence from a crime scene. These investigative steps are time sensitive and the
                 opportunity to complete these steps cannot be replicated during the course of reopening
                 the investigation. Although the failure to properly interview the victim, subject, or collect
                 crucial evidence had a significant impact and/or adverse outcome of the investigation,
                 reopening the investigation cannot overcome these errors.




44 │ DODIG-2013-091
                                                                                             Appendices




Appendix B
References
Executive Order/Directive
None.


Federal Law
Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005,” October 28, 2004.


DoD Issuances
DoD Directive (DoDD) 5106.01, “Inspector General of the Department of Defense (IG
DoD),” April 13, 2006 and April 20, 2012.

DoDD 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,” October 6,
2005 and January 23, 2012.

DoDD 1030.01, “Victim and Witness Assistance,” April 13, 2004.	

DoD Instruction (DoDI) 5505.18, “Investigation of Adult Sexual Assault in the Department
of Defense,” January 25, 2013.

DoDI 5505.03, “Initiation of Investigations by Defense Criminal Investigative
Organizations,” June 21, 2002 and March 24, 2011.

DoDI 5505.14, “Deoxyribonucleic Acid (DNA) Collection Requirements for Criminal
Investigations,” May 27, 2010.

DoDI 5505.11, “Fingerprint Card and Final Disposition Report Submission Requirements,”
June 20, 2006 and July 9, 2010.

DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,” June 23,
2006.

DoDI 1030.02, “Victim and Witness Assistance Procedures,” June 4, 2004.

DoDI 5505.07, “Titling and Indexing Subjects of Criminal Investigations in the Department
of Defense,” January 27, 2003.




                                                                                        DODIG-2013-091 │ 45
Appendices



                 Service Issuances
                 Army Regulation (AR) 27-10, “Military Justice,” November 16, 2005 and October 3, 2011.

                 AR 195-2, “Criminal Investigation Activities,” May 15, 2009, and July 8, 2010.

                 AR 600-20, “Army Command Policy,” November 30, 2009.

                 AR 195-5, “Evidence Procedures,” June 25, 2007.

                 AR 190-45, “Law Enforcement Reporting,” March 30, 2007.

                 Army Field Manual (FM) 3-19.13, “Law Enforcement Investigations,” January 10, 2005.

                 Chief of Naval Operations Instruction (OPNAVINST) 1752.1B, “Sexual Assault Victim
                 Intervention (SAVI) Program,” December 29, 2006.

                 Secretary of the Navy Instruction (SECNAVINST) 5800.14A, “Notice of Release of Military
                 Offenders Convicted of Sex Offenses or Crimes Against Minors,” May 24, 2005.

                 SECNAVINST 5430.107, “Mission and Functions of the NCIS,” December 28, 2005.

                 SECNAVINST 1752.4A, “Sexual Assault Prevention and Response,” December 1, 2005.

                 Secretary of the Navy Manual 5210.1, “Department of the Navy Records Management
                 Program, Records Management Manual,” November 2007 (Rev.).

                 Air Force Instruction (AFI) 36-6001, “Sexual Assault Prevention and Response (SAPR)
                 Program,” September 29, 2008 and October 14, 2010.

                 AFI 51-201, “Administration of Military Justice,” December 2007 with February 2010
                 change.

                 Air Force Policy Directive (AFPD) 36-60, “Sexual Assault Prevention and Response (SAPR)
                 Program,” March 28, 2008.

                 AFI 71-101 Volume 1, “Criminal Investigations,” December 1, 1999.

                 AFPD 71-1, “Criminal Investigations and Counterintelligence,” July 1, 1999.




46 │ DODIG-2013-091
                                                                                            Appendices



MCIO Issuances
CID Regulation 195-1, “Criminal Investigation (Operational Procedures),” June 3, 2009
and March 22, 2010.

CID Pamphlet 195-10, “Crime Scene Handbook,” June 30, 1999.

NCIS Manual for Investigations, “NCIS 3,” July 2008.

NCIS Manual for Administration, “NCIS 1,” July 2008.

AFOSIMAN 71-121, “Processing and Reporting Investigative Matters,” January 13, 2009.

AFOSI Handbook (AFOSIH) 71-105, “An Agent’s Guide to Conducting and Documenting
Investigations,” March 9, 2009.

AFOSI Manual (AFOSIMAN) 71-118 Volume 4, “General Investigative Methods & Evidence,”
April 30, 2009.

AFOSIMAN 71-122 Volume 1, “Criminal Investigations,” May 29, 2008.

AFOSI Instruction (AFOSII) 35-101, “Public Affairs Policies & Procedures,” October 6,
2006.

AFOSIMAN 71-124, “Crime Scene Handbook,” September 30, 2003.

AFOSIMAN 71-103 Volume 3, “Technical Services,” August 8, 2003.

AFOSIMAN 71-103 Volume 2, “Forensic Sciences,” December 16, 2002.

AFOSIMAN 71-103 Volume 1, “Forensic Psychophysiological Detection of Deception
Program,” August 29, 2000.

AFOSII 71-107, “Processing Investigative Matters,” March 15, 2000.


Supplemental Guidance
Army MEDCOM Regulation 40-36, “Medical Facility Management of Sexual Assault,”
January 21, 2009.




                                                                                       DODIG-2013-091 │ 47
Appendices




                 Appendix C
                 Case Detail Data
                 On request, the MCIOs provided a list of sexual assault cases totaling 2,263, which made
                 up our population. We, in turn, forwarded the list to the DoD OIG QMD. The QMD analysts
                 applied survey design methods to develop appropriate documentation or electronic
                 instruments for collecting information. They are used as a specialized support element
                 that provides detailed analysis tailored to specific projects. We asked QMD to provide
                 a simple random sample of cases using a 90-percent confidence level and a 5-percent
                 precision rate. They randomly selected a sample consisting of 584 cases (CID – 216,
                 NCIS – 195, and AFOSI – 173) from the lists provided by the MCIOs for review. We provided
                 each MCIO with a list of the randomly selected cases, which they made or attempted to
                 make available for our review.

                 We excluded 81 cases from the review for one of three reasons: 1) the investigation
                 was determined to be a monitor-type investigation in which another investigative entity
                 conducted the bulk of the investigative activity; 2) adjudication of the case extended into
                 2011 (therefore, the case was not closed in 2010 even though the investigative activity
                 was complete); or 3) the only victim in the case was a juvenile rather than an adult victim.
                 Additionally, NCIS was unable to locate (either the hard or digital copies) two cases. Our
                 final total of cases to review was 501 cases. Of the 501 cases reviewed, 83 cases were
                 determined to have no investigative deficiencies (reflected in Table C.1.).

                 Table C.1. Cases with No Investigative Deficiencies

                      Total            CID             NCIS            AFOSI
                       83              41               20              22


                 Of the 501 cases reviewed, 418 cases (CID – 157, NCIS – 137, and AFOSI – 124) contained
                 investigative deficiencies.   Investigative deficiencies were broken down into six
                 subcategories: interview and post-interview deficiencies, evidence deficiencies, crime
                 scene documentation and processing deficiencies, subject-focused actions, investigative
                 coordination/notification, and documentation (investigative and administrative). The
                 significance of each deficiency noted depended on the deficiencies’ detriment to the
                 successful resolution of an investigation. Regardless of the category or total number of
                 deficiencies within an investigation, a case annotated as having a single deficiency in any
                 category was deemed deficient. Table C.2 depicts the cases with investigative deficiencies.




48 │ DODIG-2013-091
                                                                                                Appendices



Table C.2. Cases with Investigative Deficiencies
(Includes cases reopened following our review)

     Total             CID            NCIS           AFOSI
      418              157             137            124


The remaining cases (362) had one or more deficiencies. Table C.2.a. depicts the
breakdown of cases by MCIO.

Table C.2.a. Cases with Investigative Deficiencies

     Total             CID            NCIS           AFOSI
      362              144             111            107


Of the 501 cases reviewed, 56 cases (CID – 13, NCIS – 26, and AFOSI – 17) had significant
deficiencies. Significant deficiencies included:

         •	 key evidence was not collected from the crime scene, the victim, or the subject;

         •	 crime scene examinations were not completed, not completed thoroughly, or
             not completed before the loss of crucial evidence;

         •	 witness interviews were not thorough or not conducted; and

         •	 subject or victim interviews were not thorough or reinterviews of subject or
             victims did not sufficiently develop new information.

Of the 56 cases identified as being significantly deficient, the DoD IG returned all of
these investigations along with the documented deficiencies to the respective MCIOs to
consider reopening and conducting additional investigative activity. As a result, 31 cases
(CID – 7, NCIS – 14, and AFOSI – 10) or 55 percent were reopened by the MCIOs to conduct
additional investigative activity. Table C.2.b depicts data regarding cases returned and
reopened by the MCIOs.

Table C.2.b. Cases with Significant Deficiencies

    Category          Total            CID           NCIS            AFOSI
 Returned               56              13             26              17
 Reopened               31               7             14              10


Cases Returned to CID: On June 7, 2012, we returned 13 cases to CID for consideration
of our findings. On June 29, 2012, CID agreed to reopen 4 of the 13 cases to conduct




                                                                                           DODIG-2013-091 │ 49
Appendices



                 additional activity. They declined to pursue additional investigative activity in the
                 nine remaining cases because they believed it would not alter the outcome of the case
                 or too much time had elapsed, causing the recommended investigative activity to be
                 impracticable. After reviewing CID’s response, we disagreed with their decision not to
                 reopen seven of the nine remaining cases. We provided additional rationale regarding
                 seven cases for CID to consider. On January 7, 2013, CID advised they reopened three of
                 those cases. No additional investigative activity will be undertaken on the remaining four
                 cases because CID believed it would not alter the outcome of the case or too much time
                 had elapsed, causing the recommended investigative activity to be impracticable.

                 Cases Returned to NCIS: On August 2, 2012, we returned 26 NCIS cases to NCIS for
                 consideration of our findings. On September 5, 2012, NCIS advised they reopened 11
                 of the 26 cases to conduct additional activity. On October 9, 2012, NCIS advised they
                 reopened one additional case (12 of the 26 cases) to conduct additional activity. They
                 declined to pursue additional investigative activity on the 14 remaining cases because
                 they believed it would not alter the outcome of the case or too much time had elapsed
                 causing the recommended investigative activity to be impracticable. After reviewing
                 NCIS’ response, we disagreed with their decision not to reopen 2 of the 14 remaining
                 cases. We provided additional rationale regarding the two cases for NCIS to consider.
                 On December 28, 2012, NCIS advised they reopened one case and intend to reopen the
                 remaining case. On February 14, 2013, NCIS advised that they reopened the final case.

                 Cases Returned to AFOSI:         On April 23, 2012, we returned 17 AFOSI cases for
                 consideration of our findings. On May 21, 2012, AFOSI agreed to reopen 10 of the 17
                 cases to conduct additional activity, but they declined to pursue additional investigative
                 activity in the seven remaining cases because they believed it would not alter the outcome
                 of the case or too much time had elapsed, causing the recommended investigative activity
                 to be impractical. After reviewing AFOSI’s response, we agreed with their decision not to
                 reopen the seven remaining cases.

                 Table C.3 depicts the total number of investigations with interview and post-interview
                 deficiencies. Tables C.4 thru C.6 depict interview deficiencies categorized by subject,
                 victim, and witness interviews in an effort to obtain a higher degree of fidelity.

                 Table C.3. Cases with Interview and Post-Interview Deficiencies

                      Total            CID             NCIS           AFOSI
                       399             140             145              114




50 │ DODIG-2013-091
                                                                                               Appendices



Table C.4. Cases with Subject Interview and Post-Interview Deficiencies

      Total              CID          NCIS           AFOSI
      119                35               42            42


Table C.5. Cases with Victim Interview and Post-Interview Deficiencies

      Total              CID          NCIS           AFOSI
      332                115              142           75


Table C.6. Cases with Witness Interview and Post-Interview Deficiencies

      Total              CID          NCIS           AFOSI
      250                79               87            84


Tables C.7 thru C.9 depict breakdowns of specific deficiencies for the areas of subject,
victim, and witness interviews.

Table C.7. Subject Interview and Post-Interview Deficiencies

            Category              Total           CID            NCIS           AFOSI
 Subject was never
 interviewed, and the file           2              0               1              1
 was not documented
 explaining why.
 Subject interview not
 thorough or did not address        67             24              22             21
 all elements of the offense
 investigated.
 Subject was not advised of          1              1               0              0
 legal rights (when required).
 Investigators did not
 follow up on logical leads         78             18              31             29
 stemming from interviews.


We noted various deficiencies, which occurred during the subject interviews of the
reviewed investigations. Based on the dynamics involved in subject interviews, we
recognize there may have been reasons these logical investigative steps were not
conducted. However, the reviewed cases did not contain supporting documentation
explaining why the subjects were not interviewed nor did they indicate the reasons that
all logical information was not addressed. The deficiency of not advising a subject of
his legal rights as required could have an adverse effect on a case; however, the review
results and projections indicate this is an anomaly (less than 1 percent of cases) versus a
potential systemic issue.




                                                                                          DODIG-2013-091 │ 51
Appendices



                 Table C.8. Victim Interview and Post-Interview Deficiencies

                                    Category                     Total       CID            NCIS           AFOSI
                      Interview was not thorough or did             98        27             35             36
                      not address all elements of offense.
                      Logical leads stemming from
                      interview were not developed or            132          39             51             42
                      pursued.
                      Information provided was not                  44        14             13             17
                      corroborated.
                      Victim’s recantation was not                  11         0              3               8
                      addressed or investigated.
                      Victim was not issued a DD Form               79        66          N/O*              13
                      2701.
                      Routine/recurring victim briefs were       179          64            115            N/A
                      not conducted IAW MCIO policy.
                 * Not Observable. There were 111 instances in which we were unable to verify NCIS’ compliance
                 with the issuance of the DD Form 2701 because the case activity records, where the information is
                 normally documented, had been destroyed IAW SECNAV M-5210.1.

                 Table C.9. Witness Interview and Post-Interview Deficiencies

                                    Category                     Total       CID            NCIS           AFOSI
                      Significant witnesses were identified
                      but not interviewed, and the file was      173          38             74             61
                      not documented to explain why.
                      Initial witness the victim confided in          9        4              2               3
                      was not interviewed.
                      Canvass interviews were not                   28        10             11               7
                      conducted.
                      Witness interview was not thorough.        102          43             26             33
                      Investigators did not follow up
                      on logical leads stemming from                98        33             30             35
                      interviews.


                 Table C.10 depicts the total number of cases that contained evidence deficiencies.

                 Table C.10. Cases with Evidence Deficiencies

                           Total               CID             NCIS        AFOSI
                           127                 46              39            42




52 │ DODIG-2013-091
                                                                                                 Appendices



Table C.11 depicts a breakdown of specific deficiencies for the area of evidence.

Table C.11. Evidence Deficiencies

          Investigators did not:             Total      CID         NCIS            AFOSI
 Collect all items of physical evidence
 identified by subject(s), victim(s), or        95      31          39               25
 witness(es).
 Submit collected physical evidence
 to USACIL for examination if                     2      0            2               0
 appropriate.
 Submit collected evidence to USACIL            25      11            3              11
 in a timely manner.
 Coordinate lab submission with
 forensic science consultant (FSC)              23      11         N/A               12
 (AFOSI) or special agent-in-charge.
 Have lab request form reviewed by              14     N/A         N/A               14
 FSC.


Table C.12 depicts the total number of cases that contained crime scene documentation
and/or processing deficiencies. Of the 501 cases reviewed, 298 cases contained crime
scene documentation and/or processing deficiencies (CID – 88, NCIS – 99, and AFOSI –
111).

Table C.12. Cases with Crime Scene Documentation and/or Processing Deficiencies

        Total             CID              NCIS       AFOSI
        218               40               88          90


Table C.13 depicts a breakdown of specific deficiencies for the areas of crime scene
documentation and processing.

Table C.13. Crime Scene Documentation and Processing Deficiencies

          Investigators did not:             Total      CID         NCIS            AFOSI
 Examine the crime scene or validate         129        25          51               53
 the crime scene.
 Have authority to search the scene.              9      4            3               2
 Photograph the scene.                       156        28          56               72
 Sketch the scene.                           207        33          86               88
 Collect potential evidence from the            21       3            9               9
 scene.




                                                                                            DODIG-2013-091 │ 53
Appendices



                 Table C.14 depicts a breakdown of specific deficiencies for the area of subject focused
                 actions.

                 Table C.14. Cases with Subject-Focused Action Deficiencies

                              Investigators did not:               Total            CID            NCIS            AFOSI
                      Title/index subject(s) IAW DoDI               14                1             13                0
                      5505.07.
                      Comply with MCIO-specific guidance           187              47             103              37
                      regarding the release of subjects.


                 Table C.15 depicts a breakdown of specific deficiencies for the area of investigative
                 coordination/notification.

                 Table C.15. Cases with Investigative Coordination/Notification Deficiencies

                              Investigators did not:               Total            CID            NCIS            AFOSI
                      Receive higher headquarters or
                      supervisor approval to close short1           20                4            N/A              16
                      (AFOSI) (administratively close) or as
                      a Final C2 (CID) an investigation.
                      Coordinate/notify forensic science            13             N/A             N/A              13
                      consultant.
                      Notify the SARC.3                             78              34            N/A4              44
                      Coordinate with trial counsel.                21                6           N/A5              15
                 1
                  	      According to AFOSIMAN 71-121, paragraph 9.1.1.3.1 and 9.1.1.3.3 closed short (administrative
                         closure) is when information is obtained indicating the investigation should not have been
                         created or the investigation is no longer the responsibility of AFOSI.
                 2
                  	      CID Regulation 195-1, paragraph 4.10 states a criminal investigation may be terminated prior to
                         exhausting all investigative leads and a Final (C) report of investigation may be prepared when the
                         CID investigative resources could be better employed on other investigations.
                 3
                  	      According to DoDD 6495.01, paragraph E2.1 (October 6, 2005 edition) the SARC is the central
                         point of contact for coordinating appropriate and responsive care for sexual assault victims.
                 4
                  	      In spite of DoD policy that requires SARC notifications in all sexual assault complaints, NCIS policy
                         did not require SARCs to be notified. Notwithstanding, SARC notifications were documented in
                         71 of 157 investigations, while they were not in 86.
                 5
                  	      Although NCIS policy does not require coordination with trial counsel, it “strongly encourages”
                         early and continuous contact with trial counsel or other appropriate attorney. NCIS documented
                         such contacts in 100 instances in the reports we reviewed.




54 │ DODIG-2013-091
                                                                                                              Appendices



Table C.16 depicts a breakdown of specific deficiencies for the area of investigative and
administrative documentation.

Table C.16. Cases with Investigative and Administrative Documentation Deficiencies

                  Category                     Total1          CID            NCIS           AFOSI
    Required supervisory reviews were           72              11           N/O2              61
    not documented.
    Review or inclusion of other related
    law enforcement agency’s report was           4              1              3               0
    not documented.
    Location of the offense was not fully       13               0              0              13
    identified.
    Case agent notes were not retained            5           N/A               5            N/A
    through the appellate review process
	
1
       The disparity in the number of cases with investigative and administrative documentation
       deficiencies and the total number of deficiencies is due to some cases having multiple
       deficiencies.
	
2
       Not Observable. There were 141 instances in which we were unable to verify whether
       supervisory reviews were conducted in the NCIS investigations because the case activity records
       and supervisor review records, where the information is normally documented, had been
       destroyed IAW SECNAV M-5210.1.


The following tables begin the demographic and other data section and contain
information on alcohol use by the subject and victim, their age ranges, pay grade, location
where offense occurred, the relationship between the subject/victim, etc. These tables do
not contain any information on deficiencies.

We identified the following details regarding intoxicant use (alcohol and/or drug) in the
reviewed investigations.

             •	 In 241 of the 501 cases reviewed, the subject was determined to have consumed
                alcohol at some point prior to the commission of the offense. Instances when
                prescription, over-the-counter, or illicit drugs, and/or a combination of
                alcohol and drugs were used by the subject were negligible.

             •	 In 252 of the 501 cases reviewed, the victim was determined to have used
                alcohol.     We also identified 16 instances when the victim had ingested
                prescription drugs at some point during the incident. The number of instances
                when the victim used illicit drugs, over-the-counter drugs, or a combination
                of drugs and alcohol was negligible.

             •	 In 219 cases, both the victim and the subject ingested alcohol and/or drugs
                prior to the commission of a sexual assault.




                                                                                                         DODIG-2013-091 │ 55
Appendices



                                •	 In two cases, the victims reported they were sexually assaulted after they
                                     unknowingly consumed an unknown intoxicating substance.

                 Table C.17 depicts the total number of cases where the subject(s) was or was not under
                 the influence of alcohol and/or drugs. The table also shows, where applicable, the type of
                 intoxicant the subject(s) used.

                 Table C.17. Cases with Subject Alcohol and/or Drug Use

                                                              Total        CID         NCIS         AFOSI
                      Alcohol                                  235          87           73           75
                      Alcohol with prescription drug             3           1            2            0
                      Alcohol with illicit drug                  2           1            1            0
                      Alcohol with unknown drug                  1           0            0            1
                      Illicit drug                               1           0            1            0
                      Unknown/undetermined                     149          51           57           41
                      None                                     110          58           23           29


                 Table C.18 depicts the total number of cases in which the victim(s) was under the influence
                 of alcohol and/or drugs. The table also shows, where applicable, the type of intoxicant
                 the victim(s) used.

                 Table C.18. Cases with Voluntary Victim Alcohol and/or Drug Use

                                                              Total        CID         NCIS         AFOSI
                      Alcohol                                 240          82           79           79
                      Alcohol with prescription drug            9           5            0            4
                      Alcohol with illicit drug                 1           1            0            0
                      Alcohol with unknown drug                 2           1            0            1
                      Prescription drug                        16           2            5            9
                      Over-the-counter drug                     1           1            0            0
                      Illicit drug                              1           0            1            0
                      Unknown/undetermined                     87          25           40           22
                      None                                    144          81           32           31




56 │ DODIG-2013-091
                                                                                              Appendices



In two investigations, the victim unknowingly consumed an unknown substance. This
information is depicted in Table C.19.

Table C.19. Cases with Involuntary Victim Alcohol and/or Drug Use

                                         Total            CID       NCIS        AFOSI
 Alcohol with unknown drug                   1             0         1            0
 Unknown drug                                1             1         0            0


Table C.20 depicts the total number of cases in which both the subject(s) and victim(s)
were under the influence of alcohol and/or drugs.

Table C.20. Cases with Alcohol and/or Drug Use by Both Subject and Victim

     Total          CID         NCIS              AFOSI
     219            79           67                73


The majority of sexual assault incidents (310 of 501 or 62 percent) occurred on a military
installation, while 175 of 501 (35 percent) occurred outside of a military installation.
Most sexual assaults occurred either in a residence/home (177 of 501 or 35 percent)
or barracks/dormitory (135 of 501 or 27 percent) and 41 of 501 (8 percent) occurred
in a hotel/motel. These numbers indicate 62 percent of sexual assaults occurred in an
environment familiar to the subject or victim. Additionally, 36 of the 501 (7 percent)
cases occurred in a deployed area. Table C.21 depicts the number of cases where the
crime occurred on or off the installation.

Table C.21. Cases Where the Sexual Assault Occurred On/Off the Installation

                                         Total            CID       NCIS        AFOSI
 On installation                         310              142        87           81
 Off installation                        175               53        62           60
 Unknown                                     16             3         8             5

Table C.22 depicts the number of cases pertaining to incidents reported to have occurred
in the Middle Eastern deployment areas.

Table C.22. Cases Where the Sexual Assault Occurred in Deployment Areas

     Total          CID         NCIS              AFOSI
      36            29            6                1




                                                                                         DODIG-2013-091 │ 57
Appendices



                 Table C.23 depicts where the sexual assault took place by the number of cases.

                 Table C.23. Where the Sexual Assault Occurred

                                                               Total           CID   NCIS         AFOSI
                      Bar/nightclub                             11              6      3            2
                      Barracks/dorm                            135             54    42            39
                      Containerized housing unit/tent           13              9      4            0
                      Field training area                        1              1      0            0
                      Government vehicle                         3              1      2            0
                      Government/public building                37             22      6            9
                      Hotel/motel                               41             15    15            11
                      Office/workplace                           9              3      5            1
                      Park/beach                                12              5      6            1
                      Parking lot                               10              3      6            1
                      Private vehicle                           10              4      5            1
                      Residence/home                           177             61    40            76
                      Ship/vessel                               11              0    11             0
                      Wooded/open area                          11              8      2            1
                      Unidentified                              20              6    10             4


                 Table C.24 depicts the number of cases that were previously reported under the restricted
                 reporting procedures and later converted to an unrestricted report.

                 Table C.24. Cases from Previously Restricted Reports

                          Total             CID         NCIS           AFOSI
                           27               4           14              9




                 Table C.25 depicts the number of cases in which the victim(s) knew or had a relationship
                 with the subject(s) prior to the sexual assault.

                 Table C.25. Cases Victim Knew or Had Relationship with Subject

                          Total             CID         NCIS           AFOSI
                          429               179         120            130


                 Although several offenses may have been investigated and/or charged, we documented
                 only the primary offense investigated. The majority of the sexual assault investigations



58 │ DODIG-2013-091
                                                                                                                                   Appendices



reviewed fell into one of the following three categories: rape (175 or 35 percent), aggravated
sexual assault (159 or 32 percent), or wrongful sexual contact (99 or 20  percent). As
previously explained in the Background section of this report, some offenses (such as
wrongful sexual contact) were not investigated to the same extent by all MCIOs; however,
these offenses fell under the purview of this review.24 Table C.26 depicts number of cases
by type of offense investigated.

Table C.26. Primary Offense Investigated1

                                                          Total               CID               NCIS              AFOSI
     Abusive sexual contact                                23                 10                   5                  8
     Aggravated sexual assault                            159                 46                 82                 31
     Aggravated sexual contact                             10                   7                  2                  1
     Assault: intent to rape                                 2                  0                  0                  2
     Forcible sodomy                                       27                 13                   9                  5
     Indecent acts                                           3                  0                  1                  2
     Rape                                                 175                 59                 27                 89
     Rape (attempted)                                        2                  2                  0                  0
     Sodomy: other                                           1                  0                  0                  1
     Wrongful sexual contact2                              99                 61                 31                   7
     Total                                                501                198                157                146
1
 	      Definitions contained in the 2007 and 2008 version of the UCMJ were in effect at the time of this
        review.
2
 	      With the change to the 2008 version of the UCMJ, indecent assault was removed and wrongful
        sexual contact was added in its place. The numbers reflected in wrongful sexual contact also
        contain the two cases (one each for CID and NCIS) investigated under the previous offense of
        indecent assault.

Table C.27 depicts the number of cases that involved multiple subjects.

Table C.27. Cases with Multiple Subjects

         Total               CID               NCIS               AFOSI
             38              21                 10                  7




	24	
       The AFOSI did not routinely investigate wrongful sexual contact or indecent assault, IAW Air Force Instruction 71-101,
       volume 1, “Criminal Investigations Program,” December 1, 1999. As explained in the Background section, NCIS investigated
       some wrongful sexual contact cases, but not all, IAW applicable NCIS and Navy policies.




                                                                                                                              DODIG-2013-091 │ 59
Appendices



                 Table C.28 depicts the number of cases that involved multiple victims.

                 Table C.28. Cases with Multiple Victims

                      Total             CID        NCIS          AFOSI
                       23               17           4             2


                 Table C.29 depicts the number of cases that involved multiple subjects and multiple
                 victims.

                 Table C.29. Cases with Multiple Subjects and Multiple Victims

                      Total             CID        NCIS          AFOSI
                       3                1            1             1


                 We identified the following details regarding the military rank relationship between the
                 subject and the victim in the reviewed investigations.

                            •	 In 144 of 501 investigations, the subject was senior in grade (rank) to the
                              victim.

                            •	 In 29 of 501 investigations, the victim was senior in grade to the subject.

                            •	 In 91 of 501 cases, both the subject and the victim were equal in grade.

                 We noted 38 of 501 cases with multiple subjects and 23 cases with multiple victims. In
                 these instances, the cases identified two or more subjects as perpetrating the offense
                 under investigation, or in the case of the victims, the case listed two or more victims
                 being victimized in an individual investigation. As a result, a total of 560 subjects and
                 531 victims were identified.

                 We noted the following highlights of the 560 subjects in the reviewed investigations.

                            •	 Of the 560 subjects, 282 (about 50 percent) consumed alcohol prior to the
                              commission of a sexual assault.

                            •	 The majority of subjects ranged in age from 18 to 23 (245 of 560 or 44 percent)
                              and the second largest group of subjects were 24 to 29 years old (141 of 560
                              or 25 percent).

                            •	 Of the 560 subjects, 473 of them (84 percent) were military personnel. The
                              majority were enlisted members (455 of 560 or 81 percent) with the junior
                              enlisted grades of E-3s (133 of 560 or 24 percent) and E-4s (117 of 560 or 21




60 │ DODIG-2013-091
                                                                                               Appendices



             percent) comprising the largest pool of subjects. Although a limited number
             of commissioned officers perpetrated sexual assaults, the majority of subjects
             in the commissioned officers corps (10 out of 16 or 63 percent) were junior
             officers from O-1 through O-3 grades (company-grade officers).

          •	 Of the 560 subjects, 187 (33 percent) received no punishment (adverse action
             taken against them) as a result of the investigation; 74 (13 percent) received
             nonjudicial punishment; 59 (11 percent) were convicted by courts-martial;
             and adverse action against 141 (25 percent) subjects was not applicable
             because the cases were either unfounded or the subjects were unknown.

Table C.30 depicts the military pay grade comparisons between subject and victim at the
date of reporting the sexual assault.

Table C.30. Military Pay Grade Comparisons Between Subjects/Victims

                                         Total         CID          NCIS         AFOSI
 Subject senior to victim                144           59            51            34
 Victim senior to subject                 29           14            10             5
 Equal pay grade                          91           28            39            24
 Combination (multiple persons)           20           14             4             2
 Unknown subject(s)                       44           16            20             8
 Not applicable                          173           67            33            73


The following tables (C.31-C.43) address individual subjects and victims and not the
number of cases. Therefore, the numbers noted will exceed the number of cases reviewed.
This is due to the number of cases with multiple subjects and victims. There were a total
of 560 subjects and 531 victims in the 501 cases we reviewed. These tables are statistical
in nature and contain no deficiencies.




                                                                                          DODIG-2013-091 │ 61
Appendices



                 Table C.31 depicts the number of subjects that were under the influence of alcohol and/or
                 drugs. The table also shows, where applicable, the type of intoxicant the subject(s) used.

                 Table C.31. Subjects Alcohol and/or Drug Involvement

                                                           Total        CID         NCIS         AFOSI
                      Alcohol                              276          99           88            89
                      Alcohol with prescription drug         3           1            2             0
                      Alcohol with illicit drug              2           1            1             0
                      Alcohol with unknown drug              1           0            0             1
                      Illicit drug                           1           0            1             0
                      Unknown/undetermined                 170          68           59            43
                      None                                 107          56           23            28



                 Table C.32 depicts the age ranges of each subject.

                 Table C.32. Age Range of Subjects

                                                           Total        CID         NCIS         AFOSI
                      18-23                                245          84           94            67
                      24-29                                141          60           36            45
                      30-35                                 62          32            8            22
                      36-40                                 21          11            4             6
                      41-45                                 22           9            5             8
                      46-50                                 12           4            5             3
                      51-55                                  1           0            1             0
                      Over 55                                1           0            0             1
                      Unknown                               55          25           21             9


                 Table C.33 depicts the subject’s affiliation.

                 Table C.33. Subject’s Affiliation

                                                           Total        CID         NCIS         AFOSI
                      Military                              473         192          148           133
                      Civilian                               33           9            5            19
                      Unknown                                54          24           21             9




62 │ DODIG-2013-091
                                                                                 Appendices



Table C.34 depicts the military subject’s pay grade.

Table C.34. Military Subject’s Pay Grade

                                           Total       CID   NCIS   AFOSI
 E-1                                        26          13     9      4
 E-2                                        48          22    19      7
 E-3                                       133          38    53     42
 E-4                                       117          50    31     36
 Junior Enlisted                           324         123   112     89
 E-5                                        63          31    12     20
 E-6                                        42          21     7     14
 NCO                                       105          52    19     34
 E-7                                        21          12     7      2
 E-8                                         2           1     1      0
 E-9                                         3           0     1      2
 Senior NCO                                 26          13     9      4
 Total Enlisted                            455         188   140    127
 W-1                                         0           0     0      0
 W-2                                         0           0     0      0
 W-3                                         1           1     0      0
 W-4                                         1           0     1      0
 W-5                                         0           0     0      0
 Total Warrant                               2           1     1      0
 O-1                                         4           0     4      0
 O-2                                         2           1     0      1
 O-3                                         4           1     0      3
 Company Grade                              10           2     4      4
 O-4                                         3           0     3      0
 O-5                                         1           0     0      1
 O-6                                         2           1     0      1
 Field Grade                                 6           1     3      2
 Flag Officer                                0           0     0      0
 Total Officer                              16           3     7      6
 Military Total                            473         192   148    133




                                                                            DODIG-2013-091 │ 63
Appendices



                 Table C.35 depicts the action that was taken on the subjects of the investigations.

                 Table C.35. Action Taken Against Subjects

                                                               Total            CID            NCIS           AFOSI
                      Convicted by trial for sexual assault     42              17              13              12
                      offenses
                      Convicted by trial for lesser non         17               5              12               0
                      sexual assault offenses
                      Acquitted by trial                        10               3               4               3
                      Discharged from service in lieu of        21              14               1               6
                      trial
                      Employment terminated and no               5               5               0               0
                      prosecution (civilian subject)
                      Nonjudicial (Article 15)                  72              40              14              18
                      Nonjudicial and discharged                 2               2               0               0
                      Reprimand/counseling                      56              26               8              22
                      Unknown*                                   6               4               0               2
                      No action taken                          187              48              71              68
                      Not applicable (unknown subjects or      141              61              50              30
                      unfounded offenses)
                      Deceased before action taken               1               0               1               0
                      Totals                                   560             225             174            161
                 *For six investigations, that the MCIOs categorized as being closed, no disciplinary action information
                 available.

                 We noted the following highlights of the 531 victims in the reviewed investigations.
                               •	 Of the 531 victims, 251 (47 percent) of them consumed alcohol, 16 (3
                                  percent) used prescription drugs, and 10 (2 percent) used a combination of
                                  alcohol and prescription medications prior to the sexual assault. The review
                                  also disclosed that almost an equal number of victims 246 (46 percent) were
                                  determined not to have used any drugs or alcohol prior to the sexual assault.
                                  The victim pool was split almost 50/50 between victims who had used some
                                  form of drugs and/or alcohol prior to the sexual assault and those who had
                                  not.

                               •	 The majority of victims, 330 of 531 (62 percent), ranged in age from 18 to 23.
                                  The second largest group of victims (131 or 25 percent) was between the ages
                                  of 24 and 29 years old.

                               •	 Of the 531 victims, 500 (94 percent) were female and 31 (6 percent) were
                                  male.




64 │ DODIG-2013-091
                                                                                               Appendices



           •	 The majority of the victims, 366 of 531 (69 percent), were in the military,
                and 165 (31 percent) were civilians. There were 323 (61 percent) victims
                who were junior enlisted grades (E-1 through E-4). E-3s comprised the
                largest victim pool at 129 (24 percent) personnel, followed by E-2s with 79
                (15 percent) personnel, and E-4s with 78 (15 percent) personnel. Among the
                few victims identified as commissioned officers, all six (100 percent) were
                company-grade officers (O-1 through O-3).

Table C.36 depicts the number of victims that were or were not under the influence of
alcohol and/or drugs. The table also shows, where applicable, the type of intoxicant the
victim(s) voluntarily used.

Table C.36. Victims Voluntary Alcohol and/or Drug Involvement

                                           Total        CID          NCIS         AFOSI
 Alcohol                                   251           89           82           80
 Alcohol with prescription drug             10              6          0            4
 Alcohol with illicit drug                   1              1          0            0
 Alcohol with unknown drug                   2              1          0            1
 Prescription drug                          16              2          5            9
 Over-the-counter drug                       1              1          0            0
 Illicit drug                                1              0          1            0
 Unknown/undetermined                        2              1          0            1
 None or involuntary use                   247          117           76           54


In three investigations, the victim involuntarily ingested alcohol and/or drugs. This
information is depicted in Table C.37.

Table C.37. Victims Involuntary Alcohol and/or Drug Involvement

                                           Total        CID          NCIS         AFOSI
 Alcohol with unknown drug                   1              0          1            0
 Unknown/undetermined                        1              1          0            0
 None or voluntary use                     529          217          163          149




                                                                                          DODIG-2013-091 │ 65
Appendices



                 Table C.38 depicts the age ranges of each victim.

                 Table C.38. Age Range of Victims

                                                              Total           CID            NCIS           AFOSI
                      Under 18                                  3               1              1               1
                      18-23                                   330            122             121             87
                      24-29                                   131             62              32             37
                      30-35                                    35             18               4             13
                      36-40                                    16               5              3               8
                      41-45                                    10               8              0               2
                      46-50                                     4               1              2               1
                      51-55                                     2               1              1               0
                      Over 55                                   0               0              0               0
                 Note: Although the scope of the evaluation involved only adult victims, there were three cases in
                 which a victim under the age of 18 was included in the investigation with an adult victim.

                 Table C.39 depicts the victim’s affiliation.

                 Table C.39. Victim’s Affiliation

                                                              Total           CID            NCIS           AFOSI
                      Military                                366            153             134             79
                      Civilian                                165             65              30             70


                 Table C.40 depicts the gender of the victims.

                 Table C.40. Victim’s Gender

                                                              Total           CID            NCIS           AFOSI
                      Male                                     31             13              17               1
                      Female                                  500            205             147            148




66 │ DODIG-2013-091
                                                                                Appendices



Table C.41 depicts the military victim’s pay grade.

Table C.41. Victim’s Pay Grade

                                        Total         CID   NCIS   AFOSI
 E-1                                     37            15    18      4
 E-2                                     79            46    27      6
 E-3                                    129            34    53     42
 E-4                                     78            36    27     15
 Junior Enlisted                        323           131   125     67
 E-5                                     25            13     6      6
 E-6                                      8             4     1      3
 NCO                                     33            17     7      9
 E-7                                      2             1     0      1
 E-8                                      1             0     1      0
 E-9                                      0             0     0      0
 Senior NCO                               3             1     1      1
 Total Enlisted                         359           149   133     77
 W-1                                      0             0     0      0
 W-2                                      0             0     0      0
 W-3                                      1             1     0      0
 W-4                                      0             0     0      0
 W-5                                      0             0     0      0
 Total Warrant                            1             1     0      0
 O-1                                      1             0     1      0
 O-2                                      4             2     0      2
 O-3                                      1             1     0      0
 Company Grade                            6             3     1      2
 O-4                                      0             0     0      0
 O-5                                      0             0     0      0
 O-6                                      0             0     0      0
 Field Grade                              0             0     0      0
 Flag Officer                             0             0     0      0
 Total Officer                            6             3     1      2
 Military Total                         366           153   134     79




                                                                           DODIG-2013-091 │ 67
Appendices



                 For 531 victims, a relationship of some type (acquaintance, friend, or co-worker)
                 existed between the victims and the subjects. In the majority of cases, the subjects were
                 acquaintances (160 of 531, or 30 percent) or friends (110 of 531, or 21 percent) of the
                 victim. In some instances (55 of 531, or 10 percent), the subject was identified as a co-
                 worker of the victim. In 82 instances of 531 (15 percent), the subject was unknown to
                 the victim or had no identified relationship with them. The relationship details for the
                 remaining victims (124 of 531) can be found in Table C.42.

                 We also identified the following data regarding military subjects’ affiliation with their
                 victims.

                            •	 In 22 instances, the subject was the victim’s supervisor; in rare instances, 4 of
                              531, the subject was subordinate to the victim.

                            •	 In one instance, the subject was the victim’s roommate.

                            •	 In 5 instances, the subject was identified as the victim’s recruiter.

                            •	 In one instance, the subject was the victim’s instructor.




68 │ DODIG-2013-091
                                                                                            Appendices



Table C.42 depicts the subject-to-victim relationship type.

Table C.42. Subject-to-Victim Relationship Type

                                        Total         CID         NCIS         AFOSI
 Spouse                                  42            15           4           23
 Ex-spouse                                1             0           0            1
 Boy/Girlfriend                          15             6           2            7
 Ex-Boy/Ex-Girlfriend                     7             1           3            3
 Supervisor                              22            12           7            3
 Subordinate                              4             1           0            3
 Coworker                                55            27          20            8
 Friend                                 110            34          37           39
 Acquaintance                           160            79          42           39
 Roommate                                 1             0           0            1
 Recruiter                                5             2           3            0
 Doctor/medic                             2             0           2            0
 Teacher/instructor                       1             0           0            1
 Coach                                    1             0           0            1
 Other                                    3             2           0            1
 Undetermined relationship               20             3          17            0
 No or N/A relationship                  82            36          27           19


Table C.43 depicts the number of victims that were cooperative during the investigation.

Table C.43. Victim Cooperative During Investigation

                                        Total         CID         NCIS         AFOSI
 Yes                                    433           187         119          127
 No                                      98            31          45           22




                                                                                       DODIG-2013-091 │ 69
Appendices




                 Appendix D
                 Memorandum of Results



                                                                                          November 26, 2012



                                                     Memorandum of Results


                      To:                                   , Violent Crime Division,
                                     Oversight Directorate, Investigative Policy and Oversight

                      From:                                            , QMD/DPAO/AUDIT

                      Thru:                       , Technical Director, QMD/ DPAO/AUDIT

                      Subject:       QMD Support in Review of Department of Defense Sexual Assault
                                     Investigations (Project No. 2011C019).


                              Objective. The objective of the project is to evaluate the adequacy of sexual
                      assault investigations, specifically to determine whether the Military Criminal
                      Investigative Organizations (MCIOs) investigative procedures comply with DoD and
                      Military Service guidance, and whether the MCIOs adequately investigated sexual
                      assaults as required by the standards. The evaluation scope will consider sexual assault
                      investigations with adult victims closed in the calendar year 2010.

                              Population. The population for the three MCIOs for cases closed for sexual
                      assaults during the calendar year 2010 is tabulated below:

                                            MCIOs                         Number of Closed Cases

                                     1.     AFOSI                                   477
                                     2.     CID                                   1,082
                                     3.     NCIS                                    704
                                             Total                                2,263

                              Measures. The attribute measure was the number of deficiencies in the sexual
                      assault cases during the investigation process.

                              Parameters. We designed the sample at 90% confidence level and 5% precision.

                              Methodology. We developed Simple Random Sample (SRS) plan for each MCIO,
                      and randomly selected samples for each organization without replacement. A summary
                      table of the population size, sample size, and the number of cases reviewed is provided
                      below:




70 │ DODIG-2013-091
                                                                                                          Appendices




       MCIOs          Population        Sample          Cases            Cases          Cases
                        Size             Size          Excluded         Missing        Reviewed

1.      AFOSI             477             173              27              0             146
2.      CID             1,082             216              18              0             198
3.      NCIS              704             195              36              2             157
         Total          2,263             584              81              2             501

        During the review of the sample, the team could not locate 2 sample cases. They
also determined that there were 81 cases out of the scope, and should not have been in the
population.

         The team reviewed each of the 501 sample cases, and provided to QMD the
deficiencies or other related problems found in each sample case. After review and
analysis of the sample results, we computed statistical projections based on the sample
results for each MCIO by using SRS formulae, and then for DoD as a whole by using
stratified sample formulae with the MCIOs as the three strata. These projections are
included in the attached spreadsheet. Each line in the spreadsheet includes the relevant
information, e.g., population and sample size, number of deficiencies (or related errors),
statistically projected deficiencies and deficiency rate with the lower bound, point
estimate, and upper bound.

        An illustration of the interpretation of the statistical results for the first line in the
attachment (and the following lines thereafter) for “Cases Excluded” would be: CID with
a population of 1,082 cases and a sample of 216 cases has 18 cases excluded in the
sample, and we are 90% confident that the projected number of cases excluded in the
population is between 58 and 123, and the point estimate is 90; we are 90% confident that
the rate of the number of cases excluded is between 5.3% and 11.3%, and the point
estimate is 8.3%.



Attachment: Spreadsheet




                                                                                                2




                                                                                                     DODIG-2013-091 │ 71
Management Comments




                 Management Comments
                 CID Comments




72 │ DODIG-2013-091
                Management Comments



NCIS Comments




                      DODIG-2013-091 │ 73
74 │ DODIG-2013-091
                                                                                 UNCLASSIFIED
                                                                                                                                                                                                   Management Comments




                                         COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                            (Please read instructions on back before completing form.)
                                                                                                                                                                                    Final Report

                                     COMMAND                               COMMENT                                                                                         A/
                                                                                                                                                                                    Reference

                      #   CLASS   POC NAME, PHONE,   PAGE #     PARA #       TYPE                                COMMENT AND RATIONALE                                     R/
                                     AND EMAIL                              (C/S)                                                                                          P


                      1                NCIS            ES       Findings     S       COMMENT: NCIS requires that investigators must notify or coordinate with the
                                                                                     convening authority upon initiation of a case, which often times will involve the
                                                                                     SJA for the command. NCIS does not concur with the comment as written,
                                                                                     but NCIS is currently in the process of changing the policy to ensure all
                                                                                     investigations will be coordinated with the prosecutive agency upon initiation of
                                                                                     an investigation.

                                                                                     RATIONALE: The above has been a standing policy for NCIS via Chapter 25
                                                                                     (Report Writing), although a review of the chapter disclosed this was
                                                                                                                                                                                    Revised


                                                                                     inadvertently not maintained in the chapter. Chapter 25 is in the process of
                                                                                     being re-written; this policy, to include the notification of prosecutive agency
                                                                                     will be included in the chapter.

                                                                                     RATIONALE FOR DISPOSITION:
                      2                NCIS            ES       Findings     C       COMMENT: DODIG reports that NCIS guidance regarding records checks does
                                                                                     not provide a definitive timeliness requirement. NCIS does not concur as
                                                                                     NCIS policy requires that database checks are completed and reported in the
                                                                                     ROI (OPEN) report which must be provided within three (3) days of initiation.

                                                                                     RATIONALE: NCIS-1, Chapter 25.1-5.2d. Records Check. d. Records Check.
                                                                                     When a NCIS investigation is initiated, it is the responsibility of the controlling
                                                                                     field office to conduct complete records check of all subjects, co-subjects, and
                                                                                                                                                                                    Revised

                                                                                     victims.

                                                                                     RATIONALE FOR DISPOSITION:
                      3                NCIS             2          2         S       COMMENT: NCIS policy requires the initiation of an investigation into all
                                                                                     wrongful sexual contact “(former indecent assaults)”. Investigative guidance,
                                                                                     GEN: 23A-0056) provided to all NCIS field elements on 09DEC08 reiterated
                                                                                     that “All allegations of wrongful sexual acts and contacts shall be investigated.”

                                                                                     Rationale: NCIS 3, Chapter 34, 1.1 and GEN: 23A-0056

                                                                                     RATIONALE FOR DISPOSITION:

                                                                                 UNCLASSIFIED                                                                                   1
                                                                                 UNCLASSIFIED
                                         COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                            (Please read instructions on back before completing form.)
                                     COMMAND                              COMMENT                                                                                    A/
                      #   CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                              COMMENT AND RATIONALE                                  R/
                                     AND EMAIL                             (C/S)                                                                                     P


                      4                NCIS            11                    S      COMMENT: The findings report that in 111 NCIS investigations victims were
                                                                                    not provided with the DD Form 2701 (VWAP). NCIS non-concurs with this
                                                                                    finding as NCIS policy does not state that the VWAP is to be annotated in the
                                                                                    investigative report. VWAP annotations are recorded in the Case Activity
                                                                                    Record and the Investigative Plan which are maintained as notes in the
                                                                                    original case file.

                                                                                    RATIONALE: NCIS 3, Chapter 6, Section 20.4, m. “Special agents conducting
                                                                                                                                                                              Revised

                                                                                    interviews of victims and witnesses should annotate their case notes in some
                                                                                    manner to document their provision of crime victim assistance information to
                                                                                    that person.”

                                                                                    RATIONALE FOR DISPOSITION:
                      5                NCIS            13                    C      COMMENT: The findings report that three (3) NCIS investigations were found in
                                                                                    which evidence was not submitted to USACIL. NCIS Non-concurs with this
                                                                                    finding.

                                                                                    RATIONALE: A review of the three (3) investigations disclosed that evidence in
                                                                                    one case was submitted to USACIL for analysis. The remaining two (2)
                                                                                    investigations involved subjects who reported the sexual act was consensual.
                                                                                    Per policy, USACIL will not conduct analysis when subjects admit to the act
                                                                                                                                                                              Revised


                                                                                    but claim consent.

                                                                                    RATIONALE FOR DISPOSITION:
                      6                NCIS            17                    C      COMMENT: The top chart cites NCIS deficient in 86 investigations in notifying
                                                                                    the sexual assault response coordinator. NCIS non-concurs with this
                                                                                    comment. Although NCIS agents work with the SARCs to ensure that all
                                                                                    victims are assigned a Victim Advocate who accompany the victim during the
                                                                                    NCIS interview is they so desire, NCIS policy does not require agents to
                                                                                    document SARC notification via NCIS Reports of Investigation.
                                                                                                                                                                              Revised

                                                                                    RATIONALE: NCIS-3, Chapter 34-4.4


                                                                                 UNCLASSIFIED                                                                             2
                                                                                                                                                                                        Management Comments




DODIG-2013-091 │ 75
76 │ DODIG-2013-091
                                                                                 UNCLASSIFIED
                                                                                                                                                                                           Management Comments




                                         COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                            (Please read instructions on back before completing form.)
                                     COMMAND                              COMMENT                                                                                       A/
                      #   CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                               COMMENT AND RATIONALE                                    R/
                                     AND EMAIL                             (C/S)                                                                                        P


                                                                                    RATIONALE FOR DISPOSITION:
                      7                NCIS            17          1         C      COMMENT: The top chart cites NCIS deficient in 57 investigations in
                                                                                    coordinating with the trial counsel. NCIS Policy requires that investigators
                                                                                    must notify or coordinate with the convening authority, which often times will
                                                                                    involve the SJA for the Command. NCIS Policy does not require notification or
                                                                                    coordination with the Service Trial Office. NCIS does not concur with the
                                                                                    comment as written, but NCIS is currently in the process of changing the policy
                                                                                    to ensure all investigations will be coordinated with the prosecutive agency
                                                                                    upon initiation of an investigation.

                                                                                    RATIONALE: NCIS-3, Chapter 6-16.2. Resolved criminal investigations with
                                                                                    military personnel identified as subjects or co-subjects will be briefed to the
                                                                                                                                                                                 Revised


                                                                                    military commander who has disciplinary responsibility for the individuals; this
                                                                                    briefing will be documented in a ROI (INTERIM). OPNAVINST 3100 of
                                                                                    22DEC09 requires the convening authority consult with a SJA prior to final
                                                                                    disposition. In those resolved investigations identifying civilians, corporations
                                                                                    or companies as suspects, similar documentation of the prosecutive referral is
                                                                                    required.

                                                                                    RATIONALE FOR DISPOSITION:




                                                                                 UNCLASSIFIED                                                                                3
                                                                                  UNCLASSIFIED
                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                        A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                                COMMENT AND RATIONALE                                    R/
                                      AND EMAIL                             (C/S)                                                                                         P



                      8                 NCIS            18                    C      COMMENT: The top chart cites NCIS deficient in 141 investigations for
                                                                                     supervisor reviews. NCIS non-concurs as this comment in inaccurate. NCIS
                                                                                     does not require case reviews to be documented in the Reports of
                                                                                     Investigation. The case reviews are documented in the Case Activity Report
                                                                                     which is maintained in original case file as notes. NCIS does not require notes
                                                                                     to be sent to NCISHQ. The field case files are destroyed one year after a
                                                                                     case is closed, or with legal authorization upon completion of the appeal
                                                                                     process if the investigation resulted in a conviction. This review involved
                                                                                     investigations initiated during 2010; notes were no longer available for review.

                                                                                     RATIONALE: NCIS 1, Chapter 19-8 The FO and NCISRA are the primary field
                                                                                     repositories for closed investigations and operations. The FO and NCISRA
                                                                                                                                                                                   Revised

                                                                                     shall retain files on closed investigations, operational and collection matters to
                                                                                     include specific phase Polygraph Examination cases for a period not to
                                                                                     exceed one year as prescribed in SECNAV M-5210.1. At the field level, this
                                                                                     includes Agent Notes and other material (e.g., original correspondence).
                                                                                     Exceptions include the following: cases awaiting judicial, administrative, or
                                                                                     appellate action.

                                                                                     RATIONALE FOR DISPOSITION:
                      9                 NCIS            19         1          S      COMMENT: Non-concur with comment that NCIS requires agents to conduct
                                                                                     complete records checks, but does not impose a timeliness requirement.

                                                                                     RATIONALE: NCIS 1, CHAPTER 25 (REPORT W RITING) NCIS policy requires that
                                                                                     database checks are completed and reported in the ROI (OPEN) report which
                                                                                     must be provided within three (3) days of initiation.
                                                                                                                                                                                   Revised


                                                                                     RATIONALE FOR DISPOSITION:
                      10                NCIS            20                    C      COMMENT: Non-concur with comment that labeling of NCIS case notes with
                                                                                     the originator’s name, date, place, and case number was not always
                                                                                     accomplished. The case notes were not available for this review due to NCIS
                                                                                     policy of maintaining the notes with the original case file in field, and the
                                                                                                                                                                                   Deleted

                                                                                  UNCLASSIFIED                                                                                 4
                                                                                                                                                                                             Management Comments




DODIG-2013-091 │ 77
78 │ DODIG-2013-091
                                                                                  UNCLASSIFIED
                                                                                                                                                                                     Management Comments




                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                          A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                                COMMENT AND RATIONALE                                      R/
                                      AND EMAIL                             (C/S)                                                                                           P


                                                                                     destruction policy as previously noted.

                                                                                     RATIONALE: NCIS 1, Chapter 19-8 The FO and NCISRA are the primary field
                                                                                     repositories for closed investigations and operations. The FO and NCISRA
                                                                                     shall retain files on closed investigations, operational and collection matters to
                                                                                     include specific phase Polygraph Examination cases for a period not to
                                                                                     exceed one year as prescribed in SECNAV M-5210.1. At the field level, this
                                                                                     includes Agent Notes and other material (e.g., original correspondence).
                                                                                     Exceptions include the following: cases awaiting judicial, administrative, or
                                                                                     appellate action.


                                                                                     RATIONALE FOR DISPOSITION:
                      11                NCIS            27         5          C      NCIS non-concurs with the comment that NCIS retention of investigative case
                                                                                     notes raises a legal issue. This issue has reportedly been referred to the DoD
                                                                                     IG Policy and Programs Division to determine compliance with “Federal law,
                                                                                     such as the Jencks Act”. Under the Jencks Act the government must be able
                                                                                     to provide statements, to include notes, throughout the trial and appellate
                                                                                     phase of an investigation. NCIS is in full compliance as notes are maintained
                                                                                     with the original case file throughout the life of the investigation, to include the
                                                                                     appeal process for investigations which result in a criminal conviction.

                                                                                     RATIONALE: NCIS 1, Chapter 19-8 (cited above)


                                                                                     RATIONALE FOR DISPOSITION:
                      12                NCIS            28         1.         S      COMMENT: DODIG recommends the Director emphasize thorough and timely
                                                                                     completion of all sexual assault investigations to ensure that all investigations
                                                                                     are completed as required by DoD, Military Service, and command regulatory
                                                                                     guidance.

                                                                                     RATIONALE: NCIS emphasizes the thorough and timely completion of all NCIS
                                                                                     investigations. The message of “Operational Excellence” as it has been

                                                                                  UNCLASSIFIED                                                                                   5
                                                                                  UNCLASSIFIED
                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                    A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                              COMMENT AND RATIONALE                                  R/
                                      AND EMAIL                             (C/S)                                                                                     P


                                                                                     referred to within NCIS, permeates throughout all NCIS investigative
                                                                                     disciplines and has been a consistent message to field and headquarter
                                                                                     components, see reference (a). Additionally, in recent years NCIS has
                                                                                     implemented enhancements to its management oversight/inspection
                                                                                     processes. The Staff Assistance Visit Program (SAV) is used to assess field
                                                                                     performance and adherence to “operation excellence,” focusing on
                                                                                     investigative quality, timeliness, and compliance with NCIS policy and
                                                                                     standards, see reference (b). SAVs are initiated by the NCIS Deputy Director
                                                                                     at his/her discretion. The Quality Assurance Visit Program (QAV) is a program
                                                                                     in which the NCIS geographic Executive Assistant Directors (EAD) for Atlantic,
                                                                                     Pacific, and Global Operations conduct regularly scheduled visits to field
                                                                                     offices to assess investigative quality, timeliness, and compliance with NCIS
                                                                                     policy and standards, see reference (c).

                                                                                     RATIONALE FOR DISPOSITION:
                      13                NCIS            28         2a         S      COMMENT: DODIG recommends the Director place increased emphasis on
                                                                                     interview thoroughness through training, supervision, and policy
                                                                                     improvements.

                                                                                     RATIONALE: NCIS acknowledges interview and interrogation techniques are
                                                                                     central to the success of any investigations. The NCIS Training Academy
                                                                                     dedicates approximately 75 hours to interview and interrogation techniques –
                                                                                     25 during CITP and 50 during SABTP. NCIS has also partnered with U.S.
                                                                                     Army to further develop and expand the USA Advanced Sexual Assault
                                                                                     Course to include NCIS investigative perspective and practices. Currently,
                                                                                     NCIS personnel attend training at FLETC and Ft. Leonard Wood.


                                                                                     RATIONALE FOR DISPOSITION:
                      14                NCIS            28         2b         S      COMMENT: DODIG recommends the Director evaluate the benefits of using the
                                                                                     combination of narrative and question and answer interview format to help
                                                                                     ensure that facts and circumstances are documented thoroughly.


                                                                                  UNCLASSIFIED                                                                             6
                                                                                                                                                                               Management Comments




DODIG-2013-091 │ 79
80 │ DODIG-2013-091
                                                                                  UNCLASSIFIED
                                                                                                                                                                                  Management Comments




                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                       A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                                COMMENT AND RATIONALE                                   R/
                                      AND EMAIL                             (C/S)                                                                                        P


                                                                                     RATIONALE: NCIS recognizes the combination of narrative and question and
                                                                                     answer interview format and does not prohibit its use. There is no plan at this
                                                                                     time to effect a change for taking statements, but NCIS will continue to
                                                                                     emphasize the requirement for thorough statements regardless of the format
                                                                                     used.

                                                                                     RATIONALE FOR DISPOSITION:
                      15                NCIS            29         3.         S      COMMENT: DODIG recommends the Director evaluate his existing policies and
                                                                                     enhance his guidance regarding the collection of clothing worn by suspects
                                                                                     and victims subsequent to a sexual assault.

                                                                                     RATIONALE: NCIS concurs as the current policy reflects that clothing worn by
                                                                                     the victim, or left at the scene by the subject should be seized vice must be
                                                                                     seized. This is particularly important if the sexual assault just occurred and/or
                                                                                     if the clothing has not been washed. Discretion must be given if the clothing
                                                                                     has been washed unless required for corroboration purposes. NCIS-3,
                                                                                     Chapter 34.4.4 m.

                                                                                     RATIONALE FOR DISPOSITION:
                      16                NCIS            29         3b         C      COMMENT: DODIG recommends the Director conduct new or additional
                                                                                     refresher training to highlight the critical nature physical evidence plays in
                                                                                     sexual assault investigations and the subsequent prosecutions.

                                                                                     RATIONALE: NCIS has continuously provided training in conducting sexual
                                                                                     assault investigations, which includes the significance of physical evidence. In
                                                                                     addition NCIS has partnered with U.S. Army to further develop and expand the
                                                                                     USA Advanced Sexual Assault Course to include NCIS investigative
                                                                                     perspective and practices. Currently, NCIS personnel attend training at
                                                                                     FLETC and Ft. Leonard Wood.
                                                                                     RATIONALE FOR DISPOSITION:
                      17                NCIS            29         3c         S      COMMENT: DODIG recommends add evidence collection in sexual assault
                                                                                     investigations as a special interest item during command inspections for the
                                                                                     next 2 fiscal years at all levels.
                                                                                  UNCLASSIFIED                                                                                7
                                                                                  UNCLASSIFIED
                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                       A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                               COMMENT AND RATIONALE                                    R/
                                      AND EMAIL                             (C/S)                                                                                        P



                                                                                     RATIONALE: NCIS does not concur with making evidence collection in sexual
                                                                                     assault investigations a special interest item during command inspections.
                                                                                     Evidence collection in all investigation is by procedure already part of the
                                                                                     review process from the first line supervisor review to the NCIS IG inspection
                                                                                     process. NCIS will continue to ensure all evidence in handled in accordance
                                                                                     to policy and procedure.

                                                                                      RATIONALE FOR DISPOSITION:
                      18                NCIS            29         4.         C      COMMENT: DODIG recommends the Director evaluate his policies and
                                                                                     enhance supervision regarding their agents’ response to known and available
                                                                                     crime scenes and evaluate the necessity for conducting a crime scene
                                                                                     examination for all sexual assault investigations

                                                                                     RATIONALE: NCIS concurs and will continue to place emphasis on the
                                                                                     requirement to conduct crime scene documentation for delayed sexual assault
                                                                                     reports. NCIS will ensure that crime scene examination/documentation is
                                                                                     completed for all sexual assault investigations. Documentation and
                                                                                     justification will be required when NCIS is unable to complete a crime scene.

                                                                                     RATIONALE FOR DISPOSITION:
                      19                NCIS            29         5.         S      COMMENT: NCIS policy requires that investigators notify or coordinate with the
                                                                                     convening authority upon initiation of the investigations, which often times will
                                                                                     involve the SJA for the command. NCIS Policy does not require notification or
                                                                                     coordination with the service trial office. NCIS does not concur with the
                                                                                     comment as written, but NCIS is currently in the process of changing the policy
                                                                                     to ensure all investigations will be coordinated with the prosecutive agency
                                                                                     upon initiation of an investigation.

                                                                                     RATIONALE: Current policy requires that NCIS agents provide investigative
                                                                                     findings to the convening authority vice the Trial Service office. NCIS-3,
                                                                                     Chapter 6-16.2. Resolved criminal investigations with military personnel
                                                                                     identified as subjects or co-subjects will be briefed to the military commander

                                                                                  UNCLASSIFIED                                                                                8
                                                                                                                                                                                  Management Comments




DODIG-2013-091 │ 81
82 │ DODIG-2013-091
                                                                                  UNCLASSIFIED
                                                                                                                                                                                       Management Comments




                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                            A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                                 COMMENT AND RATIONALE                                       R/
                                      AND EMAIL                             (C/S)                                                                                             P


                                                                                     who has disciplinary responsibility for the individuals; this briefing will be
                                                                                     documented in a ROI (INTERIM).

                                                                                     RATIONALE FOR DISPOSITION:
                      20                NCIS            29         6a         C      COMMENT: DODIG recommends the Director ensure information related to the
                                                                                     location(s) of incident, dates and times of occurrence, dates and times the
                                                                                     incident(s) were reported, offenses under investigation, and other pertinent
                                                                                     administrative data are properly documented within reports of investigations.

                                                                                     RATIONALE: NCIS concurs; emphasis has been, and will continue to be placed
                                                                                     on ensuring all reports contain thorough and complete information. The NCIS
                                                                                     Report of Investigation (ROI) Open is primarily an internal NCIS document that
                                                                                     reports the receipt of information which serves to predicate the initiation of an
                                                                                     investigation, reference (g). The first paragraph of the Narrative portion should
                                                                                     clearly state the reason for case initiation; i.e., reactive, reciprocal, details, and
                                                                                     disposition, and if applicable, contain the relevant statute(s) that is/are
                                                                                     suspected to have been violated. The ROI (OPEN) must answer, at minimum;
                                                                                     who, what, where, when, why and/or how the offense was committed.
                                                                                     RATIONALE FOR DISPOSITION:
                      21                NCIS            29         6b         C      COMMENT: DODIG recommends the Director evaluate the benefits of preparing
                                                                                     a report of investigation title page that includes the location(s) of incident,
                                                                                     dates and times of occurrence, dates and times the incident(s) were reported,
                                                                                     offenses under investigation, and other pertinent administrative data.

                                                                                     RATIONALE: Non-concur; the reporting system utilized by NCIS satisfies the
                                                                                     requirements of both its military and civilian customers. The information is
                                                                                     contained in the Executive Summary which is provided in every report upon
                                                                                     initiation.

                                                                                     RATIONALE FOR DISPOSITION:
                      22                NCIS            30         7          C      COMMENT: DODIG recommends the Director evaluate his existing policy and
                                                                                     enhance his guidance regarding timely completion of records checks to ensure
                                                                                     they adequately support investigations.
                                                                                  UNCLASSIFIED                                                                                     9
                                                                                  UNCLASSIFIED
                                          COMMENT MATRIX FOR Evaluation of the MCIO Sexual Assault Investigations, Project 2011C019


                                                             (Please read instructions on back before completing form.)
                                      COMMAND                              COMMENT                                                                                        A/
                      #    CLASS   POC NAME, PHONE,   PAGE #     PARA #      TYPE                                COMMENT AND RATIONALE                                    R/
                                      AND EMAIL                             (C/S)                                                                                         P



                                                                                     RATIONALE: NCIS currently has adequate policy to address this area of
                                                                                     concern. NCIS-1, Chapter 25-5.2.d. Records Check, reference (g). When a
                                                                                     NCIS investigation is initiated, it is the responsibility of the controlling field
                                                                                     office to conduct complete records check of all subjects, co-subjects, and
                                                                                     victims. These database checks are reporting in the ROI (OPEN) which must
                                                                                     be submitted within three (3) business of initiation of the investigation.
                                                                                     (OPEN).

                                                                                     RATIONALE FOR DISPOSITION:
                      23                NCIS            30       8a and       S      COMMENT: DODIG recommends the Director a. Ensure the full accountability of
                                                                    b                all NCIS Investigative files. b. Correct policies and procedures to preclude the
                                                                                     loss of additional records.

                                                                                     RATIONALE: NCIS has policy in place to ensure accountability of NCIS files and
                                                                                     will ensure set policies are adhered to in order to avoid the loss of any case
                                                                                     files.

                                                                                     RATIONALE FOR DISPOSITION:




                                                                                  UNCLASSIFIED                                                                             10
                                                                                                                                                                                Management Comments




DODIG-2013-091 │ 83
Management Comments



                 AFOSI Comments




84 │ DODIG-2013-091
Management Comments




      DODIG-2013-091 │ 85
Management Comments




86 │ DODIG-2013-091
Management Comments




      DODIG-2013-091 │ 87
Management Comments




88 │ DODIG-2013-091
Management Comments




      DODIG-2013-091 │ 89
Management Comments




90 │ DODIG-2013-091
Management Comments




      DODIG-2013-091 │ 91
Acronyms and Abbreviations



                 Acronyms and Abbreviations
                              AFI Air Force Instruction
                           AFOSI Air Force Office of Special Investigations
                          AFOSIH Air Force Office of Special Investigations Handbook
                          AFOSII Air Force Office of Special Investigations Instruction
                      AFOSIMAN Air Force Office of Special Investigations Manual
                            AFPD Air Force Policy Directive
                             AAS Agent Activity Summary
                              AR Army Regulation
                           AUSA Assistant United States Attorney
                             CAR Case Activity Records
                               CI Cognitive Interview
                             CID U.S. Army Criminal Investigations Command
                           CODIS Combined DNA Index System
                             CRR Case Review Records
                              DA Department of the Army
                             DCII Defense Central Index of Investigations
                           DoDD Department of Defense Directive
                            DoDI Department of Defense Instruction
                          DoD IG Department of Defense Inspector General
                            DNA Deoxyribonucleic Acid
                           FLETC Federal Law Enforcement Training Center
                              FM Field Manual
                              FO Field Office
                      GEN ADMIN General Administration
                             FSC Forensic Science Consultant
                             IAW In Accordance With
                               JA Judge Advocate
                           MCIO Military Criminal Investigative Organization
                           MCRT Major Case Response Team
                            NCIS Naval Criminal Investigative Service
                          NCISRA NCIS Resident Agency
                         NOTAM Notice to Airmen
                             N/O Not Observable
                      OPNAVINST Department of the Navy Chief of Naval Operations Instruction
                            PMB Performance Management Branch
                            QMD Quantitative Methods Division
                             ROI Report of Investigation




92 │ DODIG-2013-091
                                                           Acronyms and Abbreviations



       SAA Special Agent Afloat
       SAFE Sexual Assault Forensic Examination
        SAV Staff Assistance Visit
        SAC Special Agent-in-Charge
      SAPR Sexual Assault Prevention and Response
     SAPRO Sexual Assault Prevention and Response Office
      SARC Sexual Assault Response Coordinator
SECNAVINST Secretary of the Navy Instruction
 SECNAV M Secretary of the Navy Manual
         SII Special Interest Item
      UCMJ Uniform Code of Military Justice
     USACIL U.S. Army Criminal Investigative Laboratory
      U.S.C. United States Code
         VA Victim Advocate




                                                                      DODIG-2013-091 │ 93
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
